  ..    . ...   _._.     , "   : . ,'". . ' :;...   . , "-- -       ----..
                                                                . ..- ---    ,-­




                          ,I

                       THE CLINICAL ROLE OF THE

                       . COMMUNITY PHARMACIST





        'RVICES.




       bt'dIa


OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALUA TION AND INSPECTIONS
                                                                                   NOVEMBER 1990
           .THE CLINICAL ROLE OF THE

            COMMUNITY PHARMACIST





                    Richard P. Kusserow
                    INSPECTOR GENERAL




OEI-D1- B9- B9160                         NOVEMBER 199"
                                EXECUTIVE SUMMARY


PURPOSE

The purpose of this study is to: (1) examne the current level of clinical seIVices available in
community pharacy settngs, (2) identify barers that limt the availability of such seIVices
and (3) suggest actions that can be taken to reduce barers and improve pharaceutical care
for ambulatory patients.

BACKGROUND

This study expands on an issue identied in an earlier inspetion entitled " Medicar Drug
Utilization Review. " As outlined in that repon, the incidence. of mismedication among older
adults is relatively high and reflects a number of systemic weakesses in the health care
delivery proess. The role of the pharcist in managig drg therpy can be crtical,
parcularly for older adults who may have complex drg regimens prescrbe for them by
more than one physician. Our focus in this repor is on the community      phary    settg and
the clinical seIVices available to elderly ambulatory patients. Clinical pharacy refers to
functions performed by the pharcist on behal of the patient to identi, resolve and prevent
drg-related problems.


Our data were gathered frm: (1) a case study of community pharcists who provide a
broad range of clinical servces to ambulator patients, (2) a review of relevant researh
findings related to clinical pharcy prctice, and (3) a series of intervews with researhers,
academics and practitioners, as well as a focus group session with expert in the field.

FINDINGS

There is strong evidence that clinical pharmcy services ad value to patient care and reduce
health care utilzation costs.


              Research demonstrates that clinical pharacy servces add value to patient care
              for both institutionalize and ambulatory patients.



              Added value includes not only improvements in clinical outcomes and enhanced
              patient compliance, but also reuctions in health car costs associated with
              mismedication problems.




Clinical services are not widely provided in community pharmcy settings.
In the community pharmacy setting, signifcant barriers exist that limit the range of clinical
services generally provided.


             Barers that impede provision of clinical pharcy      seIVices include the
             economic strcture of the retail pharacy industr, interprofessional conficts
           . limitations on information available to pharacists, gaps in   pharacy trining,
             and uneven patient demand.

             There ar some community pharacists who provide a broad rage of clinical
             seIVices to their patients. Neverteless, the methods they use   to overcome
             barers do not suggest   simple or immedate solutions.



RECOMMENDATIONS

The Public Health Service and the Health Care Financing Admnistration, individually and
collaboratively, should develop a strategy to reduce the barrers to clinical pharmcy
services, parzicularly for amulatory elderly patients.


The National Institute on Aging should tak a leadership role   in developing risk   indicators
and treatment priorities for amulatory elderly patient.

The American Pharmaceutcal Association (APhA) and the Amrican Association of Colleges
of Pharmcy should develop standrds of practice that adress all components of clinical
pharmcy care on the basis of patient need.
State governments should revise pharmcy practice acts to allow      maimu use of technicians
in community settngs. The APhA and State pharmcy associations should tak            a leadership
role in encouraging more extensive and effective use of technicians in commnity pharmcies.

COMMENTS

Comments on the drt repon were received from the Health        Ca
                                                            Financing Admnistration
(HCFA) and the Public Health SeIVice (PHS) within the Deparent. Whe PHS concured
with our recommendations, HCFA did not. The HCFA believes that curent State Medcaid
initiatives are adequate and sees no need for a larger collaboration effon with PHS. We
continue to believe that a combined approach is  warte
Comments were also received from severa professional organizations includig the American
Society of Consultant Pharacists, the American Association of Colleges of Pharacy, the
American Pharaceutical Association, and the American Society of Hospita Pharacists. . All
of these organizations were supponive of the recommendations made in the repon. Copies
the comments received and our response to those comments appear in appendi VI.
                     . . . . . . . .. .. ... .... ... ... ...
                                                            . .........................
                                                                                     ... .... .... .................       .. . . . . ... ........ .... .. . . .. .. .. ....... ... .
                                                                                                                   .... ....    ..
                                                                                                                                .. ...........
                                                                                                                          . ... .
                                                                                                                          .                  .... .... .... ............. ... .... ... ............. .... ... ... ... . . .




                                                           TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
FINDiNGS

  The four components of clinical pharmacy.. . .

  No clear standards to define the optimum mix of
  clinical services

  The added value of clinical pharmacy services
  Clinical services not widely provided in community
  pharmacy settings. 





. Barriers in community settings that limit the range of
  clinical services provided. . .

RECOMMENDATIONS.. .. . . . . .. . . . . ..

  The U. S.          Public Health Service and the Health Care
  Financing Administration. . . . . . .
  The National Institute on Aging. . .. . . . . .. . . . . .
  The American Pharmaceutical Association and the
  American Association of Colleges of Pharmacy................                                                                                                                                                      .

  State Governments. 





COMMENTS................................................ .

APPENDIX I

  The History of Clinical Pharmacy                                                                                                                                                                                      - 1



APPENDIX II

  Pharmacy Settings                                                                                                                                                                                               11-
              .. .. .. ... ... ... ... ... ... ... ... ... ... ... ...
                                                                    . .... .... .... ..... ..... ..... ..... ........................................................................ ... . . .. . ... .
                                                                                                                                                                                      ... .
                                                                                                                                                                                          ......... ....   .
                                                                                                                                                                                                           .. .....
                                                                                                                                                                                                                  .. . ..




APPENDIX II

 Case Study Methodology. . . . . .                                                                                                                                                                                  11 - 1




APPENDIX IV

 Description of the four components of clinical
 pharmacy care. . . . . .                                                                                                                                                                                          IV. 1


APPENDIX V

 Endnotes. . . .                                                                                                                                                                                                   V. 1

APPENDIX VI

 Detailed comments on the draft report and OIG
                                                                                                                                                                                                                    VI.
 response..
                                                                          .-.--_u,-- .

                                     INTRODUCTION


The purpose of this study is to: (I) examne the current level of clinical seIVices available in
community pharacy settngs, (2) identify barers that limt the availability of such seIVices,
and (3) sug.gest actions that can be taken to reduce barers and improve pharaceutical care
for ambulatory patients.

We undenook this study to examine more closely an issue rased in a previous repon entitled
 Medicare Drug Utilization Review. " Drg Utiization Review (DUR) is also referred to as
Drug Use Evaluation (DUE) and defined as a " strctur, ongoing, organizationally
authorized quality assurace proess designed to ensure that drgs ar used appropriately,
safely and effectively.

The incidence of mismedication and adverse drg retions (ADRs) and other drg-related
illness among older adults is relatively high. Beyond the incalculable human costs associated
with mismedication among the elderly, there are signficant financial costs borne by patients,
famlies, and public and private health insurers. One reent study conducted by the Caifornia
State Assembly s Offce of Researh documented annual costs in that State of $340. 1 millon
associated with hospitaizations of elderly patients for tratment of ADRs.

One level of the health car delivery system that focuses specifcaly on drg therapy is that of
clinical pharacy care, someties referr to as pharaceutical car. Its thee major
functions on behalf of the patient ar: " (1)   identifyig potential and actual drg-related
problems, (2) resolving actual drg-related     problems, and (3) preventig potential drg-related
problems. " 3

As the pharcy profession has maturd, the clinical care function has evolved and has gained
increasing emphasis over the past decade. (For a discussion on the history of clinical
pharacy see appendi I.

This repon focuses on clinical seIVices available to ambulatory patients in community
pharacy settigs. Community pharacy refers to wal-in pharacies in
non- institutionalized settngs and includes chain drgstores, independent pharacies and
apothecares. (Appendix n includes a detaed discussion of these and other         phary
settngs. ) The role of the community pharacist in patient car can be crtical, parculaly for
older adults who may have complex drg regimens prescrbe for them by more than one
physician. In that context, policy makers and health care providers who are committed to
improving the quality of care for the elderly and reducing health car utilization costs
associated with drg therapy problems are turning more attention to the role clinical pharacy
can play in achieving those goals. It is our hope that this repon wil assist them in expanding
the level of pharaceutical care available to all patient groups,and pancularly older
Americans at high risk of drg-related ilness.
Data were gathered for this study frm three major sources:


             a case study of community pharacists who provide a broad range of clinical
             seIVices to ambulatory patients (see the companion repon entitled, " The Clinical
             Role of the Community Pharcist: Case Studies, " for a descrption of each
          . case study);



             a review of relevant research findings related to clinical pharacy practice,
             including topics such as the cost!enefit of clinical pharacy inteIVentions; the
             effects of clinical pharacy car on patient compliance; and the obstacles to
             clinical seIVices for ambulatory patients; and

             a series of inteIViews with researchers, academics and practitioners in the field of
             clinical pharacy as well as a focus grup session with expens in the field. -


(Appendix II includes a more detaled descrption of our case study methodology.

                                           FINDINGS



     THERE ARE FOUR COMPONENTS OF CLINICAL PHARMACY PRACTICE:
     COLLECTION OF PATIENT INFORMATION, PROSPECTIVE DUR, PATIENT
     COUNSELING, AND PHYSICIAN CONSULTATION. EACH OF THESE
     COMPONENTS ENCOMPASSES A CONTINUUM OF POSSIBLE SERVICES.

Clinical pharacy practice is composed of four major components: collection of patient
information, Drg Regimen Review (DRR), patient counseling, and physician consultation.
Research on clinical pharcy that suppons this four- par analysis includes: the American
Association of Colleges of Pharacy s (AACP) Committee Repon on Clinical SeIVices in
                                4 the Amercan Pharaceutical Association s (APhA)
Community Pharacy. Practice,
Stadards of Prctice, and Dennis Hellng s study of the functions of clinical pharacists in
famly practices. 6 Our analysis is intended to be genera enough to apply to may pharacy
settings, though ourpriar   interest is in the clinical seIVice profile of community pharacy
settings.

Within each component of clinical pharacy, there is a rage of servces that define the
pharcist s activities. In that context it should be noted that none of these components is
simply either practiced or not practiced, in any settng. In eah of these components, Le.,
areas of practice, a pharacist may provide any combination of a wide rage of possible
seIVices. The intensity of these seIVices, in term of the resourcesreuirto perform them,
vares greatly, raging from a minima level of seIVice to a maimal level. The level of
seIVices provided also vares gratly among tys Of pharacy settng, among individual
pharacists, and among patients and patient groups, even within a single pharcist

practice. The reasons for these varations in clinical practice ar discussed thoughout this
repon. It should be noted that we ar not discussing only prevalent pratices, or even
accepted stadads of practice, but all possible pratices. V1Ialy any pharacist in any
setting can say, with some faiess, that she or he provides some level of clinical seIVices;
there is vinually no such thing as a pharacist who provides no clinical car at al.

The continuum of seIVices offered within each component afects but does not determne the
range of seIVices within the other thre.For example, extensive data collection could enhance
the pharacist s abilty to closely monitor a patient s regimen. Neverteless, a given
                                 seIVices.
community pharacist could perform a maimal level of data collection, but stil provide only
minimal or moderate monitorig
The following is a graphic display of each component. An expanded discussion of the full
range of clinical pharacy seIVices is include in appendix IV.


                              Collection of Patient Information



                                        From Patient




         present
       precrption                            present                       patinrs
          drgs                           aTe drgs                          c:ncms                      lab data



Min.




                            allergies                  pat drugs            course of tretment'     diagnostic data
                        chronic conditions                                    . hospitaiztion




                                                                                         From Physician




                                         Drug Regimen Review
                              Screening and Evaluation of Data


                         Computer Screens For:                                  Pharmacist Evaluates Data



                              drg-dru                     dru-dsease
       dosge                  interactons                     interctons
Min.                                                                                                                  Max.

                   duplications               drug- allergy
                                              interactions
                                         Patient Counseling


                            new prescriptions
                                                                                                  follow-up
                                                            verbal                               counseling
            writtn information

                                                      information and.
         nae of                                                                  chcking                   checking
           drugs            administrtion               explanation             compiiace                  for ADRs

Min.
                                                                                                                                 Max.

               dosage                potetil                                               chcking                   contating
                                      ADRs                                               effectvene              noncompliant
                                                                                           of drg                  patients




                                 Physician/Pharmacist Consultation





       cotat between
         physician and
                                                                                        colloction of pharacy
                                            physician phones
         pharmcist                        pharacist to seek                              wilh medic plctce:
         to aulhorie                      pharacist's advice                              pharmact reviws
                                                   on drg                              medicl file of each patient
         prescription

Min.
                                                                                                                                 Max.


                        pharmacist phones                            sharng of exam                    in-prsn patient
                       physician to discuss                          data , la data                     ca coference:
                   therapeutic or pricing issues                     diagnostic data                 (famiiy practce model)
II.   THERE ARE NO CLEAR STANDARDS THAT DEFINE THE OPTIMUM MIX
      OF CLINICAL PHARMACY SERVICES IN THE CONTEXT OF INDIVIDUAL
      PATIENT NEED.

In an ideal community setting, a pharcist would have the capability to provide maximal
                                                                                     such a
level seIVices in all clinical components for every patient in car. However, even in
setting, maJimallevel seIVices would not be indicated for al patients, nor would they be an
effcient use of resources.
                       mix of seIVices based on patient need, a number of questions must
In determining the corrct
be addrssed For example, what constitutes counseling that patients should receive? What is
the minimum amount of information that should be provided to all patients? How should that
information be conveyed-orally, in    wrnen form, or both? Should pharacists themselves
  counsel the patient each time a drg is dispensed? Which patients should receive close
. monitoring by pharaciststhat is, who are the high-risk patients in need of maimal level
 seIVices? These are but a few of the issues that surace in a close examnation of the functions
 encompassed by clinical pharacy.

                                                                                    about these
 Unfonunately, there is litte consensus within the profession or the industr itself
 issues. Similarly, we could find very litte research in the scientic and academic
                                                                                   needs.
 communities regarding stadads of clinical pharacy care as applied to patient .

 Two research projects that do addrss the issue of determning patient
                                                                        nee each approaching
 the problem from a dierent persective, were identied The fit is a study conducted by
 Koechler et al. at the University of Minnesota on indicators for the selection of ambulatory
 patients who warant close pharacy monitoring. The researhers developed six prognostic
 indicators and conducted a retrospective char review to identify adverse drg outcomes and
                                                                                       outcomes
 their relationship to those indicators. The study documente evidence that adverse
 incrased as the number of indicators present incrased Patients with a history of
 noncompliance (one of the indicators) appear at highest risk of adverse outcome.
                                                                                       ? A second

 approach that focuses specifically on stadads of car is reflected in the work of Linda
                                                                                            Strd
  at the University of Florida. Strd has developed an instrment that stadazes
  documentation of a clinical pharacist s data base, patient care activities, and therapeutic
 plans. Adherence to the functions within this schema would theoretically result in an
 individualize treaU1ent plan for eachpatient. Pharcists would identiy and trat high- risk
 patients not by applying generaize indicators, but by charng individualizd risk profies

 These approaches to improving drg therapy for ambulatory patients clearly hold promise but
 require more practical application and testing to document their value. We understad that the
 General Accounting Offce wil also be conducting a study to determne categories of patients
 and drgs that require maxima level clinical pharcy servces. In the near term,
                                                                                   however,
                                                                               be resolved
 the question pf standardizing pharacy seIVices based on patient need wil not
  easily.
II. THERE IS STRONG EVIDENCE THAT CLINICAL PHARMACY SERVICES
     ADD VALUE TO PATIENT CARE AND REDUCE HEALTH CARE
     UTILIZATI0N COSTS.


The value of clinical seIVices is substantiated by the scientific literature on the subject. A
number of research projects conducted in institutional and ambulatory settings have
documented this added value:



              A study conducted in six pharacies in Virginia measured the effect of
              pharacists ' monitoring and educational seIVices provided to hypenensive
              patients. Results demonstrated bener compliance in the experimental group of
              patients (44 of 70) than in the control group (23 of 66). Improved bloo
              pressure was achieved in 74 percent of the experimenta group and 58 percent
              of the control group.

              A study in Memphis of non-institutionalize patients of a hospita outpatient
              clinic measured the relationship betWeen the pharcist
s communication of
              different levels of wrnen drg therpy information and patients ' compliance
              rates with antibiotic drg regiens. The experienta grup that reeived the
              highest level of information had a mean compliace rate of 84. 7 percent while
              those patients receiving less information had a compliance rate of 63 percent.

               A literature review of studies assessing costs and benefits of
               pharacist-conducted drg regimen reviews in skiled nursing facilities was
               published by Samuel Kidder in 1987. The studies showed decases in number
               of medications prescrbed per patient, hospitaizations, cost of medications and
               other factors. Kidder s analysis projecte annual savings of $220 million in
               avened health car costs resulting from clinical pharcy inteIVentions. II

               Integrtion of clinical pharacy serces within a private medcal practice is one
               technique that has been used on a limited basis to involve clinical pharacists in
               primar car. Under this model, the pharacist provides a number of seIVices to
               the office, including drg therapy consultation with physicians, monitoring   of
                                                                                     12 (Under
               drg therapy for each patient, and patient education and counseling.
               this model pharcists do     not dispense drgs. ) An evaluation of one such
               practice by the University of Iowa was able to document favorable effects of
               pharacy inteIVentions     on patient car.   In a retrspective review of
               recommendations made by pharacists regarding specific drg therapy
                                                                                 for
               patients, a peer review panel of physicians and pharacists found that such
               recommendations resulted in favorable outcomes in patient care for tWo thirds of
               all cases. 13

                                                              _._ _.. -




                                                                          _0'"

             In a demonstrtion project funded by the John A. Hanord Foundation of New
             York, high- risk elderly patients were enrolled in a randomized controlled tral
             prior to discharge frm a non-teaching community hospita in nonhern
             Caifornia. The pharacist, who had access to clinical/diagnostic data
             coordinated activities with attending physicians, provided intensive discharge
             counseling to patients, and monitored patients ' drg therapy for three months
             following discharge. (Monitoring included telephone consultation ,    home visits
             and brown- bag sessions in the pharacist s offce. ) Preliminar results from the
             study indicate that clinical pharacy inteIVentio!ls provided to the experimental
             group improved both patient compliance and the quality of physician prescribing
             patterns.

             A study conducted by researchers frm the University of Washington provided a
             range of clinical pharacy seIVices to elderly residents of a congrgate housing
             facilty. Following an initial assessment in which problems of medication
             compliance, regien comprehension, drg interations, and drg storage were
             identified, clinical pharists provide the subjects with individualize
             instrctions, drg therapy counseling and regimen monitoring in their homes
             over a tWo- year period A final assessment of the project conducted one year
             after the inteIVention found a significant II percent decrase in the number of
             pres     tions taen and a 39 percent decrase in the number of medcations
             taen.


The research projects descrbed above demonstrte that cliical pharcy seIVices add value
to care for both institutionalize and ambulatory patients. Such value includes not only
improvements in clinical outcomes and enhanced patient compliance, but also reductions in
health care utilization costs associated with adverse drg reactions.




IV.   CLINCAL SERVICES ARE NOT WIELY PROVIED IN COMMUNIY
      PHARMACY SETIINGS.

As mentioned previously, the concept of clinical pharacy was fit put into pratice in a
teaching hospita settng, and despite decades of evidence that such inteIVentions
                                                                                     improve
clinical outcomes and reuce overall health costs, clinical   pharacy   pratice   has remained
largely within the pUIiew of institutional settings. A large body of scientific evidence
indicates that provision of clinical servces outside of institutional settngs is uneven and often
inadequate. In terms of the typical pharacy practice at the community level , a number of
studies have found that pharcists counsel only a small percentage of their patients, that
consultations when they do occur are too brief, and16 that pharacists ' decisions in regard to
                                                         An example of this researh is a study
patient car ar often inadequate and inappropriate.
conducted by the Foo and Drg Admnistrtion on patient reeipt of drg information.
Fewer than 60 percent of the patients studied received new (non-refill) prescrptions from the
pharcist; the remainder received theirs from a clerk or cashier. "One in three subjects who
received the prescription from a pharacist said that they were told dictions for use, while
only one in ten subjects receiving the prescrption from a clerk or cashier said they received
verbal directions for use. Precautionar and side-effect informtion   was rarly provided, even

(by) the pharacist.',



Even when patient counseling is mandated by State board regulations, the amount of clinical
seIVices provided by community pharacists may not incrase. A study conducted in Kansas
evaluated the effects of mandatory patient counseling regulations 2 year after they were
implemented and found that the new requirement had no effect on the amount or qualty of
                                      18 In Washington, a State known for its progressive
counseling provided by pharacists

clinical pharacy practices, a siIpilar study was conducte before and 10 years after passage
of a madatory counseling regulation. The researchers ' conclusions were that " it is dou btful
that the amount of counseling and the incidence of maintag and using patient prof1es is
significantly greater in Washingtn than in States that do not have mandatory regulations.',
This evidence suggests that imposing a reguatory reuirment does not in itself have any
positive effect on the gap in clinical servces available to ambulatory patients.

Barers that impede the transfer of routine clinical pharacy practices to the community
setting will be discussed in a subsequent finding. But here it should be noted that there is no
conclusive evidence that the relatively low clinical seIVice level in community settngs is
confined to a parcular tye of pharacy. Although some researhers have found that chain
or discount outlet pharsts do not perform as well as those praticing in independent
pharcies, others have found no significant dierences among tyes of community
settings.

On a similar note, there has been heated debate within the pharcy profession about the
ability of mal seIVice pharacies (MSPs) to provide clinical pharcy servces to their
patients. In the course of our study, we examined the seIVices provided by the larest
for- profit MSP and the larest nonprofit MSP. In both cass, patient package insens that
include information abo t the name and purpose of the drg, proper administrtion , side
effects, and precautions ar included in over 80 percent of the prescrptions filled. In addtion
both companies offer a toll- fr   telephone seIVice with pharists available to answer
patients ' questions about their drg regimens. As for prospective utiization review, each
company uses automated screening processes to review dosage levels and interactions in the
context of individual patient profiles, a practice that is alo common among chai and
independent pharcists.

 Our conclusion from this review is that the differences in clinical seIVices provided by MSPs
 versus other retal settings may be more theoretical than actual. In theory, pharacists who
 have face-to- face contact with patients on a regular basis ar significantly better equipped to
elicit information, counsel patients and monitor drg regimens" But given the J'latively low
level of seIVices that are actually provided in community settings, there may be little
difference in the inteIVentions received by patients, and in some cases, the information
provided by MSP package insens may be more than patients receive from their neighborhood
pharacist.

     IN THE COMMUNITY PHARMACY SEITING, SIGNIFICANT BARRIERS

     PROVIDED.
     EXIST THAT LIMIT THE RANGE OF CLINICAL SERVICES GENERALLY


     Barrers Tha Impede     Provision Of Clinical Phannacy Services Include The
     Economic Structure Of The Retail Phamacy Industr, Interprofessional Conflicts,
     Limitations On InfonnaJon Available To Phanacists, Gaps In Phannacy Training,
     And Uneven Patient Demand.

1. THE ECONOMIC BARRIERS

       Product-Based Reimbursement Structure

       One of the most formdable barers facing pharacists at the community level is the
       trsaction- based reimbursement strctu of the industr. For the most par,
       pharcists ' reimburements ar linked to the sale of a product rather than provision
       of servces. Though the retal level of the drg distrbution system has always
       operate in a competitive envinment, over the past decade competition has incrased
       dramtically with the burgeoning growt of mai servce pharacies and discount
       chains. Consequently, the economics of pratice tend to keep prices down and to
       compensate with higher volume. The result tyicaly is a focus on product and price
       rather than provision of clinical servces for which there is no economic incentive

       This aspect of the economic barer   does not   lend itself to an easy fix. Proposals to
       add a clinical seIVice or counseling fee to thir- par reimbursement schedules as a
       means of encourging pharacists to provide a wider range of clinical seIVices (such
       as drg regimen review, patient counseling) ignore the economics of a retal practice.
       As long as the overall reimburement scheme is dictly tied to volume of trsactions,
       there wil be a strong incentive to increase number of sales rather than expand seIVices.
       In order to shift that incentive, the reimbursement for providig clinical servces (the
       clinical seIVice fee) would need to exceed the opponunity cost (the cost of the
       pharcist s time that would otherwse be spent filing adtional prescrptions).
       Clearly, the overall program costs of providing such an incentive would be prohibitive.
UnderutiJizaon of Supportve Personnel

Another aspect of the economic barer that effects the overall cost of pharacy
seIVices is the uneven use of pharacy technicians in community settings. The
pharcy technician is defined as " someone who, under the supeIVision of a licensed
pharcist, assists in varous technical activities that do not requir the immediate
judgment of the pharcist.. for example, mantaning patient records; settng up,
packagin nd labeling medication doses; and fillng routine orders for stock
supplies.     To the extent that technicians perform these routine activities, the overal
cost of each pharcy trsaction is reduced (since technicians ' tie is less costly than
pharcists ) and pharacists are frer to perform clinical seIVice functions for which
they are uniquely qualified.

The use of technicians, which in theory would do much to expand the clinical role of
pharacists in community settings, is a highly controversial issue within the pharacy
profession. Regulations that govern the use of technicias var enormously from State
to State, and most often, State regulations that impose legal constrts on technicians
focus on the pharcists ' perceived self- interst rather than the public s health and
       23 There is no documented evidence that technicians are less competent at
safety.
perlormng routine pharcy activities, and, in fact, tehnicians have been widely
used in hospita settings for the past 20 years Resistace to the use of supportve
personnel is a more a reflection of some pharacists ' fear that technicians wil replace
them rather than supplement the servces they provide. As one expen in the field has
said, "Fear of job loss to technicias is espaly rapant in the community settng. ,,

A close examination of State regulations governing use of tehnicians reflects a vivid
pictur of the contrvery that surounds ths issue. Nine States ban the use of
technicians in community pharcies altogether. Although the remaning States
offcially recognize technicians or do not specifcaly forbid them, there
                                                                          is wide
 varance among them in term of trning and educational requirments, licensing and
 certfication procedures, duties they are permtted to perfor, and
 pharcist/technician ratios. The degr of supervsion requir is also inconsistent
 among States. In at least 32 States a licensed pharist must be in the immedate

             26
 physical presence of a technician while she or he is perorming duties. In 5 States,
 pharcists must be accessible but not necessary in the technicians
 presence.
                                                                   '    immedate



 Beyond the legal constraits on the use of tehnicians, is the individual pharcist
 atttude about supportve personnel. Even in those States that permt wide use of
 technicians, individual pharcists may choose to underutilize them out of fear that
 their own professional value will be eroded. To the extent that this atttude prevails
 among pharacists and is reflected in legal constraints, a significant economic barer
 to provision of clinical seIVices wil remain.
2. THE INTERPROFESSIONAL BARRIER

In order for pharcists to improve the quality of drg therapy available for patients, they
must work effectively with physicians who ar responsible for prescrbing. The pharacist
ability to communicate effectively with a prescrbing physician is a crcial aspect of clinical
practice. But there ar a number of impements to communication and collaboration betWeen
community pharacists and physicians. Dr.                        Cale Kiberlin, in her research on
pharcist- physician relationships, has identified three major categories:

               Environmntal barriers: 
               The community pharacist typicaly communicates

               with physicians by phone in situations that impose severe time constraits.
               This type of communication can intensify the distace that already exists be­
               tween the tWo prfessions and reduce the amount of patient information that
               can be exchanged.

               Pharmcist hesitanc to commnicate: 

                                                      There is some evidence that phar-
               macists are apprehensive about interprofessional communication. In a discus­
               sion of this phenomenon, one researher descrbes reasons why pharacists are
               reluctat to chalenge physicias: "Because they ve ben socialze to believe
               that doctor knows besL... and despite voluminous literatu                 about inappropriate

               prescrbing by physicians. many pharistS...face a signficant atttudinal
               problem when attempting to deal with physicians on medcal tu...
                                                                                   They find it
               diffcult to accept that physicians they deal with individualy can be prone to
               prescrbing errrs... (Pharacists  also) tend to constatly                   compare themselves
               with physicians and fmd themselves coming up shon.

               Struggles for power and               Trationally, physicians have enjoyed a
                                                     autnomy:


               dominant and autonomous position within the hierahy of health car profes­
               sionals. This can lead to tension among professionals as .well as a tendency for
               health professionals to interact primaly with members of their own grup,
                                                                           tu
                with only limited interchange betWeen professions. This in 
                  can lead to
                                                                                                    .29 In

                numerous misunderstadings as well as an " us versus them mindset.'
                terms of how physicians perceive pharacists in parcular, one study that sur­
                veyed physicians reponed that when physicians "respnded to what annoys
                them about pharacists, they overwhelmngly crticize the pharist s com­
                munication with patients, parcularly in advising or reommending drgs to
                them.


 There is some evidence that interprofessional barers can be reduced when physicians are
 educated about the extent of pharacists ' knowledge regarding drg therapy. In our own case
 study inteIViews we found that physicians who work collaboratively with pharacists in a
 hospital setting are likely to be more awar of the potential value of pharacists as drg



                                                                  1,.
advisors. Similarly, physicians and pharacists who practice in rura or smal communities
                                                                                      , because
appear to interact more effectively with one another than those in larger communities
                                                                                ' in their
they are more famliar with one another and shar a higher proporton of patients
respective practices.

3. THE INFORMATIONAL BARRIER

In order for pharacists to offer a full range of clinical seIVices, they must have access to
pertnent patient information, including both over- the-counter (OTC) and prescrption
medications, drg allergies, and diseases/conditions. As highlighted in a recent GAO report
 One ara of complete agrment among physicians, pharcists and expens
                                                                                 is the need for
establishing a sound clinical data base for effective drg utilization review. ,,

For the most par, pharacists depend on      patients to provide them with basic profie
information, and in many cases patients may not be able to do this, either because they are not
                                                                    understad or reta what
given this information by their physicians or because they do not
their physicians tell them. For lab test data and diagnostic infortion, which enhance the
pharacist s ability to provide more sophisticate monitorig seIVices, pharacists        must

consult with the patient s physicians, and such information is raly shar Other
circumstaces descrbed in this report contrbute to these informtional gaps. When
pharcists do   not routinely consult with patients because of tie constrnts, patient profies
are not updated on a regular basis. Similarly, interprofessional barers also inhibit exchange
of more complex patient data

4. THE TRAINING BARRIER

Some pharcists lack adequate      traiing in cliical   pharacy skills. Such    trning involves

the development of both technical skills and knowledge concerning clinical pharacology, as
well as practical skills in c mmunicatio

 In the era before the proliferation of phareutical products and chai drgstors,
 community pharacists often had a closer relationship with their patients than they have in .
 recent decades. The pharacist was a respected pUIeyor of spialze knowledge and
 seIVices, and knew her or his patients relatively well, since there often was only one
 pharcist in a given community. These "preindustral" circumstaces gave pharacists
 experience in communicating with both patients and physicians. Tody, only a minority of
 pharcists, most of them                           ru
                              older or practicing in     settngs wher they have litte
 competition, derive clinical trning frm such      circumstaces.  One pharacy scholar
 characterizes the clinical pharacy movement as an attmpt to restore " preindustral" values
 to a " postindustral" setting.



 Since the clinical pharacy movement began in educational institutions 20 year ago,
 pharacists have been trned extensively in pharacokinetics and pharacodynamcs.
                                                                                    More
                                                                                      trning _u
recently, pharacy education has also wirnessed the introduction of communications
based in behaviora psychology into pharacy currcula. Such trning encourages
pharcists to overcome the conventional barers to communication with both patients and
            33 But despite the fact that it has been shown to incrase pharcists ' patient
physicians.
counseling activities , and to improve patient compliance, systematic teaching and evaluation
of patient communication skils are not common within schools of pharcy.

5. THE UNEVEN PATIENT DEMAND
                                                      BARRffR

Even if the barers descrbed above could be eliminated, another impediment on the
                                                                           1986 study
consumers ' side of the trsaction would remain-that of patient demad. In a
                                                                         percent to six
commissioned by the U. S. Foo and Drg Administration (FA), only thre
 percent of patient respondents, all of whom had obtaned a new prescrption within the
 previous four weeks, reponed that the had asked their pharcist or physician for any
                                       3 These data
                                                

 information about -their drg therapy.               indicate strngly that most patients are


. either unawar of the risks associated with drg therapy or ar unwiling or unable
                                                                                     to discuss
 them with a health car provider at the tie a drg is prescrbe or dispensed.

The issue of risk sensitivity and its effect on patient demand for informtion has been the
subject of severa recent studies conducte by health research and consumer advocacy
        36 In terms of consumer perception of medication-related risks, researh evidence
groups.
suggests that consumers do not assOCiate pharaceutical proucts with high risk. In one
 study, researhers asked respondents to rate 90            hazous activities, substaces, and
                regar to perception of risk, perception of benefits, and charteristics of
 technologies with
risk. When compared to other tyes of               haz,
                                              p'haraceuticals were rated as " unknown " in
 terms of risk and less draded than other hazds.

 Even when low risk assessment is not a factor, there ar other impedments that may
 discourage patients frm consulting with pharacists in their role as drg advisors:

                          Lack of knowledge about pharmacists ' exerzise:     Patients may not be aware
                          that pharcists ar highly knowledgeable about the appropriate admnistr­
                          tion, interactions, and potential side effects of medcations. In a 1984 study
                          that sUIeyed 300 elderly patients to determne drg use patterns and relation­
                          ships with pharcists, only 1 in 6 patients mentioned     the pharist as some­
                                                                         38 Another study, conducted for
                           one they would ask about prescrption drgs.

                           Schering Laboratories, asked consumers to    ra  15 statements that descbed
                           their reasons for selecting the pharacy they used Raed in fit place by
                           consumers was " the pharacist fills prescrptions promptly, " while the state­
                           ment " the pharacist wil tell the patient all about the prescrption" was raed
                                           39 The relative imponace placed on speed versus information
                           in sixth place.
                           may suggest that patients place more value on the pharacist
                                                                                          s effciency than
                           on his abilty to provide advice.

            Lack of availabiliry: 
Patients may not have direct contact with the pharacist
             when purchasing a prescrption drg or may perceive the pharacist as unavail­
             able for consultation. In pharacies where the pharacist, rather than a tech..
             nician, conducts the counting and pouring activities, a patient s interaction may
             be with a clerk who is stafing the front counter. In other cases, patients may
             perceive that the pharcist is too busy to answer questions. Consumers ' per­
             ception of pharacists ' unavailability was well documented in the Schering sur­
             vey previously cited. Respondents raked the statements " feel pharacist
             available to ask about medcations " and " it' s easy to \jet pharacists to tak" in
             seventh and eighth place (of 15 items), respectively.

             Situational impediments: 
   The architectural design of some pharacies may
             discourage patients frm consulting with pharacists. If the prescrption fill­
             ing ara is small and  crowded with customers, the noise level and lackifofthe
                                                                       41 Furter,
             privacy wil not be conducive to effective communication.
             pharcist operates from a floor rased above the level of where the patient
             stads, they may be forced to rae their voices in order to engage in conversa­


             ducted.
             tion. Severa studies have demonstrte that the quality of patient counseling
             is clear!? effected by the envionment in which pharcist counseling is con­


             Communication skills/baseline informtion:    In some cases patients may be
             generaly awar of potential risks but may not feel comfonable about asking
             specific questions, or may lack the necessar communications skills. Addition­
             ally, the absence of baseline inforation frm which questions can be foru­
             lated may also seIVe as an impement. There is some evidence that providing
             patients with basic wrttn informtion wil encourage them to be more aggrs­
             sive in seeking consultation. Medical Strtegies, Inc.
                                                                   of Boston has developed
             a public access softwar product to provide consumers with curnt informa­
             tion on medcations using patient package insen data develope by the U.
             Pharacopoeial Convention. Based on touch        scn  technology, PIC enables
              patients to query a data base about prescrption or OTC drgs and obtan both
              print and scren displays. The PIC progr is in use in a number of pharacy
              settngs including independents, HMOs, and teaching hospitas. In our inter­
              views with a number of PIC users, pharcists consistently repone a high
              level of customer satisfaction with the sece; one independent     pharst
              crted the PIC system with a significant incre in his customer bas. In all
              cases. pharacists reponed that the informtion printouts stimulate questions
               frm patients and incrased the quality and quantity of verbal counseling
               provided.


On a positive note, there is some evidence that patient demad for more and better
information about drg therapy is incrasing. Research indicates that " in genera, over the
    past decade, Americans have become more interested in.43issues afecting personal health and
                                                               Augmenting this overall
    some want more control over personal health decisions.'
    heightened interest in health car, consumer groups and nonprofit organizations such as the
    National Council on Patient Information and Education (NCPIE) have conducted public
    education campaigns to alert consumers to drg-related risks and to encourage them to seek
    more and better information from health car providers.

    We also identified several consumer-oriented information seIVices designed to respond to
    patients who ar not receiving information about their drg regimens frm pharacists or
    physicians. One such seIVice is the Medication Information SeIVice of Calfornia, a telephone
    hot line that has been in operation since 1979. The scIVice is designed to respond to callers
    questions on issues such as drg toxicity, side effects, drg interactions and safety of drg use
    during pregnancy. Over the life of the program, consumer inquires have steadily increased
    each year. Of the 3, 00 inquires handled over the most reent 12-month period, 85 percent
    came from consumers, many of whom were referred to the seIVice by health care
    professionals; the remaining 15 percent ar frm health car professionals themselves. In
    addition to providing information to callers, the sece also refers patients to physicians and
    hospitas when a reported drg   problem appear crtical.


          There Are Some Community Pharmacists Who Provide A Broad Range OfClinicaZ
         Services To Their   Patnts. Nevertheless, The Methods They Use To Overcome
         Barrers Do Not Suggest Simple Or      Immediat Solutions.

    As mentioned previously, in preparng this report we conducted a case study of community
    pharcists who provide a broad rage of clinical servces to their patients. One objective of
    our study was to determe the method they have used to overcome obstales to clinical
    patient car. Our analysis indicates that their method ar tyicaly a function of individual
    skills and personal commtment (Case studies and analysis ar include in a companon
    report entitled, "The Clinical Role of the Community Pharacist: Cae Studies.") We note
    that the flexibilty inherent in managing one s own independent pharacy can enhance a
    pharcist s abilty to apply these skills, but the independent pharacy settng does not, in
.   itself, guarte that a range of clinical servces wil be provided.



    We found no unusual envionmenta or maket conditions that allowed our case-study
    pharcists to develop clirical practices. All operate in highly competitive markets and
    compete for customers with chais, discount   pharacies, and MSPs. Populations      SCIVed by

    the pharacists ar quite diverse, raging frm workng-class       urban patients to mor afuent
    suburban patients. In sum, these pharacists enjoy no external advantage over their
    colleagues. Instead, a combination of skills in clinical pharacy, business management, and
    communications, coupled with an unusually strong professional self-image, appear to be the
    ingredients for a successful clinical pharacy practice.
  r conclusion firi' thec:asestudy analysis isthat tlis formula' cannot be duplicated easily
either through trsaction- based reimbursement inceiltives or regulatory requirements. A vital
question facing pharcists as .well as those who receive and reimburse pharaceutical
seIVices is whether the more advanced clinical pharacy   care represented   by our case-study

pharcists can become par of   mainstram practice. In devising methods to improve clinical
pharcy car    for older Americans, policy makers wil be faced with the formidable obstacles
we have descrbed in this repon, none of which wil be easily remedied.
                                     RECOMMENDATIONS


         THE PUBLIC HEALTH SERVICE (PHS) AND THE HEALTH CARE
         FINANCING ADMINISTRATION (HCFA), INDIVIDUALLY AND
         COLLABORATIVELY, SHOULD DEVELOP A STRATEGY TO REDUCE THE
         BARRIERS TO CLINICAL PHARMACY SERVICES, PARTICULARLY FOR
         AMBULATORY ELDERLY PATIENTS.

    There ar a number of compelling reasons for the Depament to assume a leadership role in
    enhancing pharceutical car for older Americans:

    Firt, the  problems associated with mismedcation present a significant theat to the health of
    older Americans. Rec ognizing the serious natu of drg-related ilness, PHS has included in
    its draft document Prmoting Healtheventing Disease-Year 200 Objectives for the
    Nation," the objective of reucig the incidence of adverse drg reactions among older
    Americans by nearly 50 percent (from an estimated 17 pe 100, 00 in 1986 to 8. 5 per 100,
    in 200). The development of a strtegy as caled for in ths recommendation could be
    instrmenta in helping PHS achieve its state goal.

    Second, there is an ongoing cost borne by the Medcar      progr for the incidence of
    drg-related ilness among beneficiares. Based on the reent study in Calforna that was
    cited earlier in this report nationwide hospitaiztion costs alone account for billons of
    dollar each year. Additionally, the Medcaid progr absorbs the costs of hospitaizations,
    doctor visits, and institutional care that result from drg-related injures and ilnesses for older
    Americans who are income eligible. The HCFA, in its role as manager of the Medicar and
    Medicaid progrs, has a major stae in ensurg that costs of preventable ilnesses
    avoided

    Third, the Medicar Catastrphic Coverage Act (MCCA) of 1988, which was reently
    repealed, mandated a DUR system and included severa provisions designed to ensure that
    cenan clinical pharcy      seIVices be provided to al beneficiares.     These provisions were
    based on a reognition by the   Congrss that mismedcation problems ar         a serious theat to   the
    health of older Americans and that clinical pharacy servces can add signficant value to
    overal patient car. Pror to repeal of the MCCA, HCFA was at work designg a
                                                                                    DUR
    progr and developing regulations and stadas           for parcipating    pharacists. The scope
    and complexity of these taks were such that expert both within 
   an outside the Deparent
    were doubtful that HCFA .could meet the implementation deadine.

    Repeal of the MCCA presents the Deparent with an opponunity to formulate a strtegy for
    improving drg therapy for the elderly in an environment fr of implementation deadlnes.
.   Although a Medicare drg benefit may not be proposed again in the near future, the overal
    issue of drg-related problems among elderly patients is not likely to escape continued



                                                    111
attention of Congrss, the media or the public. Researh and policy development on this issue
should begin now so that policy makers wil be equipped to respond effectively to future
Congressional mandates.

In that context, we recommend that HCFA and PHS develop a strategy that includes research,
demonstrtion and education effort to reuce each of the barers to clinical pharacy car
described in this repon. We strongly urge that demonstrtion effort include inteIVentions to
address multiple barers. For example, a project aimed at increasing patient demand could be
successful in rasing patients ' expectations but have no effect on expanding clinical seIVices if
economic barers ar not addrssed. Additionally, we recommend that all research effons
measure the effect of clinical pharacy car on both tota cost and clinical outcome.

There ar a number of   vehicles that can be employed by HCFA and PHS to faciltate such
effons, including the use of Medcaid waivers, Medcaid demonstration projects, and research
and demonstration grts. Listed below ar examples ofinteIVentions that may be tested:


            Test a capitated system of reimburement     to pharacists, measurng the costs and
            benefits (financial and therapeutic) of such a system, when compared to a
            product- based reimburement scheme. The capitate reimburement system
            would be based on a flat fee per beneficiar with financial penalties and rewards
            that are tied to clinical outcomes.

            In a demonstrtion project model, measur the costs and benefits of providing
            clinical pharacy monitoring for high risk ambulatory patients. Use the Medcaid
            nursing home modl which separtes the clinical monitoring functions from that of
            dispensing. Identify high-risk Medcaid patients by scning the Medcaid
            information system for patients who meet    cen crteria. For example, patients
            who are over 65, tae five or more medcations, have thr or more conditions
            and/or thre or more physicians could be    identified as candidates. Clinical
            monitoring by a pharacist who is not dispensing the patient s drgs could be
            provided to an experimenta grup withn that pol of subjects and clinical and
            cost outcomes could be measur to determne the effects of the inteIVention.

            Study existing settings where lab and diagnostic data on ambulatory patients are
            aleady available to clinical pharacists and document the costs and benefits of
            such a system. There ar a number of famly pratices where such systems are
            alady in place, and evaluation of cost and effectiveness would provide a basis for
            determning the value of encouraging duplication on a broader scale.

             Furish an experimental group of    Medicar beneficiares with blank medication
             chans and instrctions for use. Chans would be completed by physicians,
             pharacists and   patients and would include information on the name and purpose
           of both prescrption and OTC drgs, instrctions on administrtion    , and
           descrptions of side effects and significanradverse reactions. Patients would use
           chars to record their own panerns of use as well as any side effects they note.
           Chars would be presented by the patients to both physicians and pharacists
           during offce visits and whenever a prescrption is filled at the pharacy. This is a
           relatively inexpensive way to encourge improved counseling by both pharacists
           and physicians.

           Measure the outcomes among patients seIVed by pharaCists who complete
           mid-career trning progrs in patient counseling skills. As mentioned earlier
           trning in this ara has been less than adeuate for many pharacists; in order
           expand clinical servces in community pharacy settngs, mid-carr trning
           opponunities wil nee to be expande.




II.   THE NATIONAL INSTITUTE ON AGING (NIA) SHOULD TAKE A
      LEADERSHIP ROLE IN DEVELOPING RISK INDICATORS AND
      TREATMENT PRIORITIES FOR ELDERLY, AMBULATORY PATIENTS.

Although some genera categories of indicators and patient grups who ar at high rik of .
ADRs have been identied, additional researh is neeed to defme more preisely those
elderly patient groups who ar at highest risk and in gratest nee of close clinical monitorig
of their drg therapy. The NI, which has long ben concerned with drg therapy for older
adults and has considerable expenise in ths ara, should lead an effon to expand scientific
knowledge regarng high risk indicators.




II. THE AMERICAN PHARMACEUTICAL ASSOCIATION (APhA) AND THE
      AMERICAN ASSOCIATION OF COLLEGES OF PHARMACY (AACP)
      SHOULD DEVELOP STANDARDS OF PRACTICE THAT ADDRESS THE
      COMPONENTS OF CLINICAL PHARMACY CARE ON THE BASIS OF
      PATIENT NEED.

As mentioned previously, there is litte consensus within the pharacy profession about
stadads of car related to patient need Although the APhA has developed stadads of
practice, those stada ar limted in severa ways: Firt, they wer develope from a
tak- inventory approach and ar not functional in natu. Second, they do not include a
practical needs assessment model that can be used by the pharacist to assess needs, indicate
interyentions, and identify patients who require maximal level seIVices.
We therefore recommend that APhA and AACP work cooperatively to revise their stadads
of practice in a more functional context and to create a practical needs assessment model that
practicing pharacists can use to determine patient nee

IV. STATE GOVERNMENTS SHOULD REVISE PHARMACY PRACTICE ACTS
     TO ALLOW MAXIMUM USE OF TECHNICIANS IN COMMUNITY
     SETIINGS. THE APhA AND THE STATE PHARMACY ASSOCIATIONS
     SHOULD TAKE A LEADERSHIP ROLE IN ENCOURAGING MORE
     EXTENSIVE AND EFFECTIVE USE OF TECHNICIANS IN COMMUNITY
     PHARMACIES.

Underutilization of technicians to perform routine pharcy activities such as packing and
labeling medication doses and fillng routine orders for stock supplies crates a major
economic barer to provision of a broad rage of clinical servces in community settgs.
Because laws and regulations governing the use of tehnicians rest within the pUIiew of
individual States, initiatives to mamize use of techncians must be taen at the State
government level in cooperation with State boards of pharacy.

If APhA assumes the tak of developing functional stadads of pratice (Recommendation
II), it wil be well-positioned to lead an effon aimed at encourging more extensive and
effective use of technicians in community pharacies. Defining the role of the pharacist as
a cliical provider and stadazing pharaceutical car functions should diute the fear that
technicians would replace pharcists, rather than supplement the servces they provide. The
APhA should enlist assistace and consultation frm the State pharacy associations as well
as the National Association of Boars of   Phary     and the individual State boar of
pharcy in such an effon.
                                     COMMENTS



Within the Deparent of Health and Human SeIVices, the Public Health SeIVice and the
Health Car Financing Administrtion (HCFA) provided comments. The American
Pharaceutical Association, the American Society of Hospita Pharacists, the American
Society of Consultant Pharacists, and the American Association of Colleges of Pharacy
also commented.

With the exception of HCFA, all commenters expressed suppon for the findings and
recommendations. Most provided some technical suggestions and comments that we have
included in the final draft. With the suppon and leadership these organizations ar commned
to providing, we look forward to initiatives that wil expand clinical pharacy servces and
improve patient care, parcularly for groups who ar at high risk of drg-related ilness. In
appendix VI, w present, in full, each set of comments and respond to each of them.
                                        APPENDIX I


                         THE HISTORY OF CLINICAL PHARMACY

The Pharmacist: Drug Dispenser or Drug Advisor?

The pharcist has     always played a dual role: that of drg dispenser and that of drg advisor.
It is primaly the latter role that emphasizes the use of cognitive skils. and extensive traiing
by the pharacist , and that seIVesto characterize the pharacist as a health care professional
rather than merely a health car worker. This role as drg advisor is also known as the
pharcist s clinical role. Though most of the tWentieth centu, the pharacist has been
characterized by many, inside and outside the profession, as a drg dispenser and
businessman. At the same time, however, some of those inside the profession have sought to
promote the pharacist's clinical role, and in the last tWO decades, this professional role has
gained ground both inside and outside the   ra of    pharists. 1


The Pil-Counter View


During the fist half of the twentieth centu, varous elements of the U. S. health car system
incrased in prestige and sophistication, seIVg to overshadow pharacy. First, physicians
intensified their process of professionalzation and enhanced their public status, separting
their functions from, and placing them above, that of drg dispnsing. Abraam Flexner, the
encyclopedist of medicine, wrote in 1915 that pharists were not professionals, because
their function was simply to execute physicians ' orrs. The Fedra Government shorty
followed suit, denying pharcists the commssions in the Ared Forces that physicias and
others received.

Within the pharceutical community itslf, attention shifte toward drgs and away from
pharcists. After World War II, corporate financing favore research in drg development,
and similar financing was not available for research in the more servce-oriented field of
clinical pharacy. A common view was that pharacists seIVed merely as the conduits
through which the public gained access to an ever larger ary of incrasingly sophisticated
pharaceutical products. The pharacist s capacity to maage this flow of drgs to
                                                                                     patients
 was given shon   shr.
 The Clinical Pharmacy Movement

 The counteIVailing forces to this way of thinng   originate in phary education.
 Educational institutions sought to enhance pharcy s stading as a profession by enlarging
 their curcula. Beginning in 1932, following a study of pharacy s functions commssioned
 by the American Association of Colleges of Pharacy (AACP), the four- year Bachelor of
 Science degree in pharacy was endorsed by national pharacy associations and became
                                                            instituted five- year progrs,
 standad. In the 1950s and 1960s, many colleges of pharacy
                                                                                      and in
 expanding currcula to include extensive trning in the medcal aspects of drg therapy



                                                T - 1

more communications-oriented aspects of patient counseling. In the mid- 1960s, many schools
began extending their progrs to six years, awarding Doctor of Pharacy (Phan) degres,
with the sixth year often devoted to a clinical clerkship with a practicing pharacist; about 40
Phan programs               now exist. 2

The clinical pharacy movement accelerated within the subfield of hospita pharacy in the
late 1960s and 1970s. Hospita pharcists began to work with physicians as par of a
                                                                       Pharacists sometimes
clinical te am that performed diagnosis and treatment collaboratively.
went on rounds with physicians; they performed retrspective and prospective DUR; and they
oversaw drg distrbution within hospitas. Hospita pharacists worked under fewer
competitive pressures to meet a daly quota of transactions than retal pharacists, and they
became freer to spend their tie analyzing data and performg seIVices unconnected to
trnsactions.

Now, in the 1980s, the clinical functions of-the pharacist have moved to the forefrnt of
discussion in the field. Pharacy technicians and pharacy robots have proved able to fulfill
the simple dispensing functions that may-including may pharacists-have long seen as
the pharacist s major tasks. Leaders in          phary
                                                     and pharacy org izations have
increasingly promoted those clinical functions for which pharacists receive unique traiing,
as they have sought to ponry pharacy as a profession whose sUIVival is vital to public
health.

The view of the pharacist as a drg therapy maager rather than merely a drg dispenser has
received tentative endorsement from entities outside pharacy. A reent cour deision
characterized the pharacist s role as one of "risk maagement, " analogous to the physician
role of " risk assessment, " thus portayig the pharist as something more than a passive
conduit for products and for the physician s instrctions.

In sum, forces both inside and outside of pharcy seem to be moving the profession toward
an increasing emphasis on the pharacist s clinical functions. But it is unclear at this time
whether these forces will successfully supplant the view, still widespread, of the pharcist as
a drg dispenser, with litte to offer in the way of unique servces or analytc
                                                                               skils.


 Endnotes
      Hepler C.         The Third Wave in Pharceutical Education: The Clical Movement;"
      American Journal of Pharmceutical Education,            51 :369- 85,   1987.



                   Manasse H. R., " Commitments to the Future of Pharacy: Review and
       Giblin P. W.,
       Opinion of the Phar.D. Curcular Debate, Drug Intellgence and Clinical Pharmcy,
       18(5): 420- 27, 1984.





                                                     T - ')
                                       APPENDIX II


                                 PHARMACY SETTINGS

Pharacists practice in a varety of settngs. Because the terms that refer to these different
settings are fruently used in discussions of pharacy, defining them will clarfy the
discussion in this repon.

As the term " community pharcy " is used in the literature on pharacy, it refers to walk­
pharcies in non- institutionalized settngs. It includes chai drgstores and " independents.
Independent pharacies ar the most trditional setting: here, the chief pharacist also
functions as a small businessperson. " Apothecares " ar those independent pharacies that
sell only drgs.
 Institutional pharacy " includes both hospita and nuring home       phary. In hospitas,
pharcists oversee dictly the distrbution of drgs to patients and collaborate with

physicians on the proper coure of medcation thoughout a patient s stay in the hospita. In
nursing homes, pharcists                                            drgs, which is left
                            usually do not oversee the distrbution of
nurses and other cargivers. In this settng, they ar usualy " consultat pharacists
                                                                                  " who
arve at the nursing home once each month to perform the chan reviews mandated by
Medcaid.

 Home health care pharacy " addresses a patient population that is less ambulatory than
those who come to a wal-in pharacy, but usually mere ambulatory than those in fully
institutionalize settigs. Home health      car covers a wide   rage of car settngs, some more
institutional than others, and some that should be considere community settngs, for our
                                             this lare field exhaustively, our conclusions
puroses. Because we have not researhed
concerning "community pharacy " are not as applicable to home health car as to other
community pharacy settngs, namely chains and independent pharcies. Speakg
generally, this repon focuses on the car   of ambulatory patient populations and   pharcy
settngs that seIVe them.




                                                II - I

                                       APPENDIX II


                              CASE STUDY METHODOLOGY

The purpose of conducting the case study was tWo- fold:


              to obseIVe and document activities that comprise clinical pharacy practice; and

              to identify (in the case of clinical pharacists who practice in traditional
              community settings) the barers they face in providing pharaceutical care to
              their patients and to determine the methods they use to overcome those barers.



- Given that objective, we mae a purosive selection of pharsts who were identied by
 members of professional and researh organzations as practitioners who provide an unusually
 broad rage of clinical seIVices to their patients. A number of organiztions   and individuals
 were helpful to us in identifyig a candidate pool, includig the American Phareutical
 Association, the American Association of Colleges of Pharacy, the University of Florida
 College of Pharcy, and the University of Marland College of Pharacy. We made
 selections from an initial pool of 35 candidates based on telephone intervews durg which
 we solicited information about the natur of the phart s practice, the population seIVed,
 the pharcist s therapeutic specialty, and her/his wingness to parcipate in the case study.
 Our fmal selection was based in pan on geogrphical diversity; urban,  ru    and suburan
 practices ar represented. Although we sought candidates who practice in chai, independent
 and apothecar settngs, only the latter tWo are represented. None of the candidates
 nominated practice in chain pharacies.

 The pharacists   selected for our study are listed below:

        Julee Alexander
        Lifesource, Inc.
        900 Lakspur Lading Cirle, Suite 250 .
        Larkspur, CA 94939

        Nancy Culberson
        Lexington Famly Prctice     Pharcy
          O. Box 460
         Lexington, SC 29072




                                               II­

                                         "-'-   -.-                                  ,.-.. --..





      Madeline Feinberg

      Accredited Surgical Company
      9515 Gerwig Lane, Suite 131
      Columbia, MD 21046

      Lind Garrelts
      Jon s Pharacy
      S. 906 Monroe
      Spokane, WA 99204

      Howard J uni
      Capitol Drug Center
      2007 E. County Rd. E
      White Bear Lake, MN 55110

       Calvin Knowlton
       Amherst Pharacy
       332 Lumbenon Rd.
        O. Box 56
       Lumbenon , NJ 08048


In each case, we made site visits to obseIe the pharacist s practice over a 2- to 3-dy
period. In the case of the four pharacists who pratice in trtional community settgs
(Knowlton, Juni, Garlts, and Culberson), we conducte extensive intervews with the
pharcist and other sta on site, physicians who were famia with the pharacist's
practice, and patients seIVed by the pharacist. We also obseIVed the pharcist in practice
and reviewed the information systems they use to suppon clinical activities.
                                               APPENDIX IV


            THE FOUR COMPONENTS OF CLINICAL PHARMACY CARE

(1) Collection of Patient Information

                            Collection of Patient Information



                                       From Patient




         preent
        prescrption                        pret                  patinfs
                                                                 concs                          lab data
          drgs                          OTe drgs

Min.




                          allergiesl              pat drugs       course of treatmenV         diagnostic data
                      chronic conditions                             hospilaiztion




                                                                               From Physician


Much of our analysis of clinical pharacy is             strctu
                                                      around the trsfer of informtion,
which is a vita tool reuir by all those involved in providing clinical servces to patients.
The first task the pharcist must perform in ordr to provide cliical car is to collect
information from the patients themselves and from the physicians. Thus, data collection is in
itself a major function of the clinical pharacist.

Information from Patnts

The pharcist can       collect a wide rage of informtion frm the patient                At the most basic

level, she or he wil inquir about what prescrption drgs the patient is presently tag. The
pharcist may also ask about any allergies the patient may have and may inquir about what
over- the-counter (OTC) or nonprescrption drgs the patient is presently                 tag.
                                                                                Still at a
faily basic level-though           pharacists collect this inforation-ar the patient
                                 not al
diseases and other conditions, as well as the patient s weight, height and age, which afect
dosage levels. At the next level is informtion that a pharcist can collect on a patient s drg
use history. This' includes the patient's past prescrption drg use, past OTC drg use, and past
ilnesses. Finally, the pharacist may inquire about the patient s concerns about the drg
regimen , such as whether previous reactions to other medcations wil reoccur.

The pharacist most likely gets all this information dictly frm the patient. (OTC drg
information typically can be obtaned 

                                       only from the patient, since these drgs are usually
purchased without the express instrctions of a physician, and often ar not purchased at a
single phanacy or at any pharacy, with the result that no. complete record of their purchase
exists anywhere except in the patient s memory.

Informaton from Physicilns

In addition to collecting this informtion frm the patient, as well as determining the patient
main concerns and questions, the pharcist can obtan data frm the patient s physician or
physicians that can be useful in managig the patient s drg therapy. Most basic here ar the
patient's vita statistics-though the pharacist may ocasionally read
                                                                        the patient's blood
pressure or perform cholesterol screnings, if State law allows. Next
                                                                
      is informtion
concerning the patient's genera coure of medical tratment, both present and past, including
hospitaizations. Finally, the physician can shar with the pharacist data from     patient
lab tests (e. g.   bloo or liver function tests), and inormation concerning the diagnosis, which
could help the pharacist understand why the physician has prescrbed a cenan drg. This
information is readiy available to a pharist workng in a more institutionalze settg
such as a hospita, a nursing home, ora home health agency, where physicians tyically
cooperate closely with pharcists. But it is not routinely available to pharacists working in
a community settng. The practicing community pharacists we spoke with al said that
among the information about a patient that they usually do not possess, lab test data and
diagnostic data would be the most helpful to them if they had it
(2) Drug Regimen Review (DRR)




                                       Drug Regimen Review
                           Screening and Evaluation of Data


                     Computer Screens For:                           Pharmacist Evaluates Data



                           drug-drug                drug-dsease
       dosage              interactons                  interctons
                                                                                                  Max.
Min.

                duplications             dru-alergy
                                         interactions




In the community setting, the most useful tye of review that pharacists conduct is
prospective utiization review, performed at the point of sale. Retrspective review usually is
                                                                               large data bases
performed by third- par providers or nuring home pharcists who sUIey
in order to discern large-scale prescrbing pattrns. Most community pharacists do not
oversee such a large pool of prescrptions, nor do they have the son of regulatory perspective
that would mae retrspective DRR an appropriate tak for them. We
                                                                        have hear of no

community pharacist who performs retrspective DRR,        and  it seems to lie outside the
continuum of community practice.

 The first line of defense the pharacist           against drg-related iless is a manual or
                                                  can employ
 automate review of new prescrptions for potential counter- indications. At the most basic
 level, the review may screen for missing or improper (for a given drg)          dosage informtion.



 On a more sophisticate level, the review may include whatever informtion the
                                                                                           pharcist
 has collected on the patient's drg history. An automated review uses computer
                                                                                    softar that
 can be progrmed to scren for therapeutic duplications in a patient s drg regimen, which
 can occur especialy when multiple prescrbers ar involved in a patient s therapy. Becomig
 more complex still is a screening for a wide rage of drg interactions, including drg-
                                                                                          drg,
 drg- allergy, drg- diet and drg- disease interactions. It should be noted that if an automated
                                                                                             var
 system is used, the number of interactions software packages ar programmed to spot can
 greatly.
The pharcist who uses      a computerized system wil have to examine those prescriptions the
computer identifies as potentially harful in order to determine the appropriate course of
action. The pharacist will look for the same type of problem the computer has looked for,
and wil use professional judgment to decide how to proceed: whether to dispense the drg
with a waring to the patient of potential hazds, to dispense it without a waring, or to
contact the prescriber in order to seek a change in the prescrption.

Pharacists use computer programs primarly to save time-to speed the       identification of
potentional drg interactions. If a pharacist has the time, a personal examinarion of all new
prescrptions is the highest level of professional scrtiny prescrptions could receive at the
point of sale. But often, pharacists ar simply too busy, and in this case, computer progrs
are trmendously helpful tools.

(3) Patient Counseling




                                   Patient Counseling


                       new prescriptions
                                                                        follow-up
                                               verbal                   counseling
           wrttn information

                                           information and
        name of
                                            explanation      chcking          chng
          drugs        administrtion                         copiiac:         for ADRs

Min.                                                                                                Max.

              dosage            potentil                          chcking             contactng
                                 ADRs                            effectvene          noncompliant
                                                                  of drg               patints




In this component, the pharcist   trsfers informtion to the patient with the aim of ensurig
that the patient understads (1) why she is tang the medcation, (2) how she is to tae it, and
 (3) what to expect (expected outcomes, side effects and what to do in each situation) Again
 we find a wide varation in the level of counseling in both its form and content. In practice,
 information can be conveyed in wrnen and/or oral form, and it can be given in person
 though the mail, or by telephone.
Forms and Physical Settngs of Counseling

StUdies indicate that wrtten information given alone is the least effective form of counseling,
                                                                               1 The minimal
in terms of retention of knowledge and incidence of side effects  frm  drgs.
form of wrtten information is an auxiliar label placed diectly on the contaner in which the
drg is dispensed, and which gives the drg s name, the number of dosage units. and possibly,
very brief instrctions concerning admnistrtion. A recent sUIey of 400 community
pharcists found that all of those questioned used these labels, and that 68 percent of their
                        2 But as
patients received them.           indicated above, the impact of such labellng on patient
knowledge is highly questionable. . Con taining far more information ar the patient package
insert (PPls) produced by the U. S. Pharcopoeial Convention CUSP), which include fairly
complete side effect and interaction information; some community pharacists either
purchase these leafets or receive them frm pharacy organizations. Other soures of wrtten
information include leafets disnibuted to pharacists by drg manufacturrs and,
occasionally, leafets on   drgs, drg classes, or conditions that pharacists   produce
themselves. But researh indicates that even PPls, which ar    as complete as virally any
wrtten counseling can be, ar inferior to ora counseling.

Oral communication is key to effective patient counseling by most accounts. One Canadian
study found that a combination of wrttn and ora information given to patients was
successful in incrasing their knowledge of their medcations, and in reucing and preventing
mismedication , in almost any settng: in a private or nonprivate face-to-face settng or on the
telephone. The same study indicated that private face-to-face counselig, conveying both oral
and wrtten informtion, is the most effective form of counseling, even if not the only
                3 This suggests that the element of privacy, whether in person or on the
effective form.
telephone, is crcial to effective patient counseling.




Addtionally, in- person counseling provides patients with the opportnity to ask questions
about the drg the pharacist has not answere, or questions about the information the
pharcist has given them. The pharcist can also probe for any questions, concerns, or
uncertnties on the patient '   par and veriy that the patent understads crtical inormation.

InfonnaJon Conveyed


The .specific informtion conveyed to patients once agai    cover a wide rage, frm       minimal
to maximal. The most basic information the pharacist can give the patient is the prscbe
drg s name, and number of dosage units. Fundaenta as this information is, if it is simply
tyed on the botte s label and not reinforced verbally, the patient may well not retan it.
Moving to the next level, the pharcist can explain the drg s prope adstrtion to the
patient, even, in the case of an unusual admnistrtion mechanism, such as an inhaler, showing
the patient how to tae the drg. The pharacist can explai precisely how the patient should
coordinate tang the drg with eating, and what foos to avoid, and can give instrctions on
how and where the drg should be stored.




                                               T" r
 More complex is the scientific information pharacists might give a patient. They can
 explain the drg s intended effect, and tell the patient when she or he can expect relief if the
 drg works as it should. They can also war the patient about potential side effects and
 adverse interactions.

 Follow-up ActivitieslM onitoring

 All this information can be conveyed at the time of the initial prescrption , which is when
 most pharacists do most of their patient counseling. Occasionally, however, they raise their
 counseling activities to a higher level through the practice of followup counseling. They
 might check a patient s compliance at the first refill, and at subsequent refills, or they might
 monitor the effectiveness of the drg therapy at subseuent visits, and check for signs of side
 effects or ADRs. Pharacists can also contact patients, either by mail or by phone, who have
 not come in to the pharacy for refills at the expected time. In the case of the most
 personalized attention ,        a pharacist wil check on           patients regularly, not just at refil times.

 Prsently. in community settings, such a practice can be found in smal home- health
 pharcies. that have a relatively low patient-to-sta ratio. Any followup activity at all
 however, should be viewed as an unusually intense patient counseling pratice.

 (4) PhysicianIharmacist Consultation




                                  Physician/Pharmacist Consultation



          contact between

                                               physician phones                      coloction of pharacy
            physician and                                                             wi medica prctce;

             pharmcist.                    pharacist Ie seek

          .:ri
            to authrie
                  Ptio
                                           pharacit's advce
                                                   on drg
                                                                                       pharmact reviews
                                                                                    medical file of each patient


. Min.

                                                                                                                         Max.


                         pharmcist phones                         sharng of exam                     in-prsn patnt
                         physicin to discuss                      data, la   da,                    ca coferenc;
                    therapeutic or pring issues                   diagnostic data                 (family practce mod)
The flow of information between the pharacist and the physician is of key imponace to
clinical pharacy. The primar contact between physicians and pharacists occurs when a
prescrption is ordered either by phone or in wrting.

Pharmacist-Initiated Contact

The most basic contact made by a pharacist is for the purpose of receiving authorization to
fill a prescrption. In some cases, the pharacist, after reviewing the prescrption , may have
concerns about the dosage level or the length of fill prescrbed, or about potential side effects
and interactions, and may contact the physician to discuss them. If the physician cannot
satisfy the pharacist's concerns about a potential hazd to the patient s health resulting from
the use of the drg, the pharist may seek to have the physician change the prescrption.
some States, such as Washington, individual pharacists can arange with individual
physicians to change prescrptions, within clear limits on their own, if they think it is
warted. By and large, however, pharacists must seek the express permssion of the
physician to mae changes in a prescrbed therapeutic regien. Seeking such changes when
appropriate is at the hean of the risk management that pharacists ar increasingly expected
to perform. .

Pricing Issues

A pharacist might also contact a physician to discuss pricing issues involved with a
prescrption; this is more unusual, in most wal-in settngs, than contactig a physician to
discuss therapeutic issues. (Discussion over prcing is less unusual in an HMO settng, where
payment to both pharacists and physicians may be capitate and where there ar incentives
to dispense lower-priced drgs. ) A less expensive generic substitute for the prescrbed drg
may be available, or a less expensive non- generic substitute, and the pharcist may wish
dispense one of these in place of an expensive prescrbed drg. If a patient is paying cash for
the drg the matter is most pressing, but even if a patient has third-pany insurance, overal
systems costs wil be lowere if a less expensive drg is dispensed, so a pharcist might
contact a physician to discuss price-relate substitution in any case.
                                                                       Agai, in many States,
pharcists ar     free to substitute generics for prescrption drgs   without permssion from the
prescrber; there is no State, however, where community pharacists can       substitute less

expensive pharaceutical or therapeutic substitutes for more expensive drgs without the
prescrber s express permssion.

The issue of these pharaceutical and therapeutic substitutes merits fuer discussion.
Pharaceutical alternates include drgs that ar no longer on patent, but contan the same
active ingrents as a much higher-priced drg that is manufactu with tent protetion in
a dierent form. The new drg is changed slightly from the old drg: it may be changed
from a pil into a caplet, or the dosage may be doubled; but chemically it is the same as the old
 drg. Nonetheless, the manufactuer emphasizes the unique quality of the new drg in its
 det!rling, suggesting as strongly as it can that it is somehow more effective than the old drg.
 As one pharacist has obseIVed, " Effective brand-name product positioning with prescrbers,
 coupled with a relative lack of comparative price information for patients and prescrbers,
have enabled manufacturers to establish single-source drg prices largely independent of
                                                                                        fold
therapeutic uniqueness or cost of comparative proucts. It is not unusual to find a ten-
price differential (betWeen a single-source drg and its pharaceutical alternate).

Therapeutic substitution is initiated when a pharacist contats a physician to request a

                          5 .

change in the prescription drg, for example, from one diuretic to another that is less costly.
Although therapeutic interchange is common in maaged car settings and hospitas, it is rae
in the COmnunity setting.

Physician-Initiated Contact

More unusual, and charctering a closer interprofessional relationship than the pharacist
contacting the physician, is the physician seeking consultation with the pharcist. The
physician, for example, might want to ask the pharcist about the effects-and risks-of an
unfamliar drg or drg class. Clearly such contact implis a great deal of professional respect
for the pharacist on the physician s pan. If the two enjoy a parcularly close professional
relationship, they may be awar of which patients they both car for, and the physician may
contact the pharacist to ask about a parcula patient s progrss, or to seek advice on
prescrbing for the patienL Such contat is quite unusual in most wal- in pharcy settgs.
Also unusual is the sharg of a physician s examnation data lab test data and diagnostic
data on patients with a pharacisL As noted above, pharsts raly possess these data
when performng DUR, but they indicated they would fmd such information valuable.

Institutonal Contact
Unusually close contact between physicians and pharcists is faciltated in. an
institutionalize settng beause the two professionals ar locate in the same building or area.
This is usually not the case in a community settng, but if it is, then contact is faciltated
                                                               famly practice physicians
greatly. One pharcy we visited is collocated with severa
offices, and all the kinds of contact descrbed here occur there. Even in this settng, however,
the discussion between physicians and pharacists concerned individual patients, and only as
parcular questions or problems arose.


 Still more intensive would be regular patient car conferences involving pharacisL and
 physicians, in which the tratment and progrss of all patients could be discussed
                                                                                     Ths kind
 of patient car conference occurs in teaching hospitas, but almost never in the community
 settng. In one of the pharacies we visited such conferences were held weekly in which all
 staf pharacists and other clinical sta parcipated but
                                                           not physicians, and the progress of
 all the pharacy s patients was discussed. This was possible only because of the pharacy
 small patient load.




                                               IV - 8
                                .. ---_u .
Endnotes
    McBean BJ., Blackburn J. L., " An Evaluation of Four Methods of
    Pharacist- Conducted Patient Education, Canaian Pharmcy Journal         115: 167- 172

    1982.

    Ascione FJ. et al., " A SUIVey of Patient Education Activities of Community
    Pharacists, Patient Education and Counseling,     7: 359- 66, 1985.

    McBean, 167 - 172.

    Knowlton C., " The Practice of Community Pharcy: InteIVention Opponunities
    Toward Optimizig Medication Use " (Washington D. : U. S. Depanent of Health
    and Human SeIVices, Symposium on Drg Utiization Review, 1989), 9, photocopied.

    Ibid., 9.

                                                           APPENDIX V



                                                                ENDNOTES

      Definition of Drug Use Evaluation developed by the American Society of Hospita
      Pharacists, included in the " ASHP' s Guidelines on the Pharcist s Role in Drg
      Use ' Evaluation.


      Steffen R., 
      Medication Risks Among the Elderly: Cures, Cautions and Consequences
      (Assembly Offce of Research, State of Caifornia Assembly, 1989) 

                                                                              pA.

      Hepler C.D., Strnd L., "Definition of Pharaceutical Car, " (Depanent of Phar­
      macy Health Cae Administration, University of Florida, 1989) p.

      Caer B.L., "Repon of the Comminee on Clinical Servces in Community Pharacy
      Prctice,          American Journal of PharmceUtical Education,                      50:190-         1986.

      Kalman S. H., Schlegel J.E, " Stadads of Practice for the Profession of Pharacy,
      American Pharmcy, 
                  NS19 (3) : 21- 35,           1979.


      Helling D. K., "Famly Prctice Pharacy SeIVice: Par II,
      Drug Intelligence and Clinical Pharmcy, 16:35-48, 1982.

      Koechler J. A. et al., " Indicators for the Selection of Ambulatory Patients Who Warant
      Pharcist Monitorig, American Journal of Hospital Pharmcy,
            46:729- 32, 1989.

      Strd L.M. et al., " Documenting the Clinical Pharist s Activities: Back to
      Basics,"         Drug Intellgence and Clinical Pharmcy,                      22:63- 66, 1988.

      McKenney J. A. et al., "Effect of Pharacist Drg Monitoring and Patient Education
      on Hypenensive Patients," 
 Contemporary Pharmcy Practice,  1:2, 50- 56, 1978.

10.    Share T. R. et al., "Patient Compliance with Antibiotic Regiens,                                American Journal
       of Hospital Pharmcy, 
  31:479-    1974.

11.    Kidder S. W., " Cost- Benefit of Pharacist- Conducted Drg Regien                                 Reviews, "   The
       Consultant Phannci 394- 398, SepuOct 1987.

12.    Juhl R. P. et al., " The Famly Prctitioner- Clinical Pharacist Group Practice: A Model
       Clinic,        Drug Intellgence and ClinicalPharmcy, 
                     8:572- 75,   1974.


13.    Brown D. J. et al., " Evalua,tion                   of Clinical    Pharacist Consultations in a Famly Prac­
        tice Offce,          American Journal of Hospital Pharmacy,
                  36: 912- 15,     1979.




                                                                       v-I
14.   Results of a demonstrtion projet                           funded by the John A. Harord Foundation-                             of New
      York. The projectis direted by Helene Lipton PhD. of the                                              University of California in
      San Francisco at El Caino                          Hospital in Mountain View, California. In the course of
      completing our fieldwork, we visited El Camno Hospita and inteIViewed the project
      sta, hospital administrtors and physicians who car for the patients in the study
      group. Prliminar findings have been presented to the
                                                           Harord Foundation and a
      final repon wil be completed in March 1990.

15.   Hammarlund E. et al., " The Effects of Drg Counseling and Other Educational
      Strtegies on Drug Utilization of the                       23:2, 165- 170, 1985.

                                                                     Elderly,"           Medical Care,




16.   Kimberlin c., " Communications," chapter in Werteimer A., Smith M.      Pharmacy                                       , ed.,


      Practice: Social and                   3d ed. (Baltimore: Williams and Wilkins,
                                            Behaioral Aspects,


      1989) pp. 159- 78.


      See Also:

      Knapp D. A.           et al., "The Pharcist as Drg Advisor," in Werteimer and Smith,
              l00- 105.

      Werteimer A. I. et al., " More on the Pharacist as Drg Consultat:                                                    Th Case
      Studies,"
                                                         7:58- 61, 1973.
                      Drug Intellgence and Clinical Pharmcy,




      VandeIVeen R. L et al., " The                       Pharacist as Drg Consultat-                       Five Years Later,"        Drug
      Intellgence and Clinical Pharmcy, 
                             7:58-        , 1973.

      Jang R. et al., " An Evaluation of the Value of Drg Related SeIVices in Neighborhood
      Pharacies,"                             2:21- 38, 1975.
                                Drugs and Health Care,




      Rowles B. et al., " The Pharacist as Compounder                                           and Consultat            Drug Intellgence
      and Clinical Pharmcy, 
 8:242- , 1974.

      Puckett EJ. et al., "              Pharacist/atient Counseling Prtices,"                                 Contemporary Phar­
      macy Practice               1:67-71,        1978.


      Ross S. R. et al., " The Effect of a Mandatory Patient Counseling Reguation on the
      Prctices of Pharacy Prctitioners, " Contempora Pharacy Practice, 6469, 1981.

      Mason H.L. et al., "Medcation Counseling Behaviors and Attitudes of Rural Com-
      munity Pharacists,"
                                                                    18:409- , 1984.
                                              Drug Intellgence and Clinical Pharmcy, 





                  15, 1989.
       Hammel R.W., " Barers to Appropriate Consultation,"
       14-
                                                                                                         Wisconsin Pharmcist, 58:4,




                                                                         V - 2

                            ,"




17.    Morrs L.A. et al.,Patient Receipt of Prescription Drug Informtion OPE Study 67
       prepard for the U. S. Foo and Drg Administrtion, September 1983. p 21.

18.    Ross S. et al., " The Effect of Mandatory Patient Counseling Regulation on the Coun-
       seling Practices of Pharacy                   Contemporary Pharmcy Practice, 4:2,
                                                           Practitioners,"


          64, 1981.



19.    Capbell, R. K.               et al., "Compliance with Washington State s Professional Practice
       Regulations: 1974 vs. 1987,"                        American Pharmacy, 
              NS29:5,   pA7, 1989.


20.    Kimberlin                 Communications, "                p. 164.



21.    Knapp D. A., " Barers Faced By Pharacists When Attempting to Maximize Their
                                                                            43, 357­
       Contrbution to Society, American Journal of Pharmceutical Education,
       359, 979

22.    Molzon J. A., "Legal and Prfessional Issues Related to the Use of Pharacy Tech­
       nicians as Supportve Personnel," ( Anaheim, Caifornia: proceegs from the
                                                                                       pA.
       American Society for Pharcy Law Annual Meetig, April 9, 1989)photocopied,

23.     Ibid.

24.     Ibid.

25.     Ibid., p.

26.     Ibid.

27.     Kimberlin, " Communications,"                               p. 170.

28.     Knapp, " Barer's              Faced," p.359.


29.     Kimberlin, " Communications,                                         171

                                                                                                                      The Scher­
 30.     Pharmcists and               Physicians: Atttudes and Perceptions of Two Professions,


         ing Repon V, (New Jersey: Schering Laboratories) 1983.

 31.     HCFA' s Proposed DUR System Ignores Quality of Care Issues,                                         S. General Account-
         ing Offce, July 1989.



 32.     Hepler C. D.,            "The Thir Wave in Pharaceutical Education: The Clinical Movement,
         American Journal of Pharmaceutical Education, 

                                                                 51:361- 385, 1987.




                                                                                   v-3
                        , "





33.    Bilow J. A. et al., " A Comprehensive Communication Skils Progr in a Four- Year
       Pharacy Currculum, American Journal of PharmaceUtical Education, 48:42-
       1984.

34.    Kimberlin              Communications.

35.    Morrs L.A. et al., 
   A National Surey of Prescription Drug Informtion Provided to
       Patients,       OPE Study 73, prepard for the U. S. Foo and Drug Admnistrtion, 1986,


36.    Institute for Health Policy Analysis of the Georgetown University Medical Center,
       workshop on " Communicating the Benefits and Risks of Prscrption Drgs " (Isle of
       Palms, South Carolina, March 1988) and National Council on Patient Information and
       Education " conference on " New Frontiers in Patient Education " (Washington, D.
       May 1989).

37.    McCalum D. B. et al., " Communicating the Benefits and Risks of Prscrption Drgs,"
       Monograph 106, prepar for the Institute of Health Policy Analysis, Georgetown
       University Medical Center, 1989, p.

38.     Smith M. et al., " A Study of Pharacists ' Involvement in Drug Use by the Elderly,
        Drug Intellgence and Clinical Pharmcy,
                                                    18:525-29, 1984.

39.     Pharmcist Perception                     Versus Consumer Realities,             Schering Repon IV, (New Jersey:
        Schering Laboratories) 1982.


40.      Ibid.

41.      Knapp, "Barers Faced," p. 358.

42.      Ludy J. A. et al., " The Patient- Pharacist Interaction in Two Ambulatory Settgs- Its
         Relationship to Patient Satisfaction and Drg Misuse,"     Drug Intelligence and Clinical
         Pharmcy,    11:81- 89, 1977.

          Beardsley R. S.          et al., " Prvacy As A Factor in Patient Counseling,"               Journal of the
         American Pharmceutical Association, 

                                                                              NS 17:366-68, 1977.



          McBean BJ. et al., " An Evaluation of Four Method of Pharacist- Conducted Patient
          Education," Canaian Pharmcy Journal,
                                                   115:167- 172, 1982.

 43.      McCallum, p.
                                                                           California P                         har­

 44.      Marks M. R., " A Medication Sleuth at the End of a. Phone Line,"
          macist 33:3 1985; also, telephone inteIView with Richard Oksas, July 1989.



                                                                          V­
                       APPENDIX VI


DETAILED COMMENTS ON THE DRAFT REPORT AND DIG RESPONSE
. r

  (c.
                                                               Memorandum
                           r"Y''
             APR 10
                           'W""
  Dlte

  From      A6sistant Secretary for Health
            OIG Dra ft Report6 " The Clinical Role of the Community

  Subject   Pharmaci6t. " and " The Clin1 al Role of the Community
            Pharmaci6t: Case Studie6


  'To       In6pector General, OS

            Attached are the PHS comment6 on the 6ubj ect OIG draft reports.

            We generally agree with the content6 of the draft reports and

            concur with the recommendations directed to PHS. We will

            develop and implement by October 31, 1990. a 6t rategy to reduce

            barriers l      ical pharmacy 6ervice6, particularly for
            elde     atients. We sre a160 working on increasing our
                      'v

            knowledge in developing risk indicators and treatment

            priorities for elderly ambulatory patients.


            Our co cents on the recommendation to the American

            Pharmaceutical AS60ciation and American AS60ciation of Colleges

            of Pharmacy present alternatives for developing a uniformed

            review process for pharm cists in their patient encounters.



                                          Mason, M. D., Dr.

 COMMENTS OF THE PUBLIC HEATH SERVICE ON THE OFFICE OF INSPECTOR
      GENERA I OIG) DRA T REPORTS " THE CLINICA ROLE OF THE
            COMMUNITY . PHACIST, " OAI- 01- 89- 89l60, AND
      THE . CLINICAL             ROLE OF THE COMMITY PHACIST: CAE STUIES.
                                          OAI- 01- 89- 89l6l

General Comments

The reports effectively capture the                 dilem
                                            facing comunity
pharmacists rega=ding the implementation of progressive patient

oriented pharmacy services, i.               e.,   clinical pharmcy services.
The reports should have a positive impact on the pharmcy
profession by identifying the most significant barriers to the

persons.
provision of pharmceutical care for patients, especially older


A recent strategy planning conference on . Pharmcy in the 21st
Century, n held in Oc   er 1989, examned many of the major issues

confronting pharmacy today and projected for the next 15­

years. The consensus statements of the conference support the

findings of these reports. The participants included

practi tioners, pharmacy leaders, selected representatives of
consumer groups, and governent and corporate health care
decision makers. A copy of the Executive                  Sumry
                                                   (Attachment A)
is attached.


We regre       the OIG inspectors did not include in their

                         the

inspection and caSE studies the Indian Health Service (IHS)
pharmacy program. IHS has nearly 30 years of experience in

providing clinical pharmcy services with extensive                  utilization
of patient consultation. The IHS practice model has elimnated

most of the barriers described in the eIG report.


The PHS comments on the eIG recommendations that pertain to PHS

are presented below. Additional comments regarding alternative

viewpoints are also included, which we believe would strengthen

the overall content of the report. The additional coments
rela te to (1) the concept of a needs based system, and (2) the

description of clinical services, especially the graphic

representation in App'endix IV of the eIG report.


eIG Recommendation I.
The Public Health Service (PHS) and the Health Care Financing

Adinistration (HCFA),  individually and collaboratively, should
develop a strategy to reduce the barriers to clinical- pharmacy
services, particularly for amulatory elderly patients.
Page 2


PHS Comment

We concur, noting that it is essential to develop a strategy that

includes research, demonstration, and education efforts to reduce

each of the barriers to clinical pharmcy services as described
by OIG. PHS welcomes the opportunity to develop strategies to

reduce the barriers to clinical pharmcy services for amulatory
patients, with emphasis on older persons.

IHS has extensive experience in the provision of proqressive

pharmaceutical care and is the prototype of a functional practice

model that clearly demonstrates the pharmcy services concept
described in the report. IHS will develop a descriptive strategy

for reducing barriers to clinical services and demonstrate its

application by September 30, 1990.

The Bureau of Health Professions in the Health Resources and

Services Administration, PHS, will further develop the strategy

described abov in collaboration with IHS and HCFA. The strategy

will be developed and implemented by October 31, 1990.

OIG Recommendation II.

The National Institute on Aging (NIA) should take a leadership

role in developing risk indicators and treatment priorities for

elderly amulatory patients.
PHS Comment

We concur. NIA has taken action to increase its knowledqe in the

area of geriatric pharmacology, includinq the areas of risk

indicators and treatment priorities for elderly amulatory
patients. NIA has recently published a Request for Applications

(RFA) : " Pharmcology in Geriatric Hedicine" which solicits

research applications on druq utilization reviews, pharmco­
epidemiology, and . other areas related to the improvement
                                                    Tw
                                                           of
                                                        million
medication prescribinq and use by older persons.
dollars have been set aside for this RFA. Scientific review of
proposals will be accomplished by a special initial review

qroup in June 1990, with secondary review to be completed at

the September 1990 meetinq of the National Advisory Council on

Aqing. It is                       anticipated that approximtely 8-10 hiqh quality
applications will be funded with startinq dates of

December 1, 1990.

However, this recommendation may be more effectively accomlished
if conducted in conjunction with an exprt panel from appropriate

PHS agencies and professional orqanizations. Indicators can be

developed but they will only tell you which patients 

                                                                         may   be at
-..   -.-                                  --                  __.




            Page 3



            high risk (..v I.. ..                   - ..x",a
                                        gh risk). What is needed is a
            shortened practical needs assessment process (see coments on

            recommendation III. below) that can be used at each encounter

                             to determne his/her particular need for
            wi th each patient
            clinical intervention. In addition, the term adverse drgoutcome
                                                                     negative   or   adverse
            reactions is too limiting. The term 


            should be substituted because it includes such important items as

            treatment failure due to inappropriate drug use.

            Technical Comments

                        Needs Based Concept

                                     Paqe 6, Paraqraph 2 . The question raised in this

                                     paragraph is the key issue in the report and can be

                                              c1 up as follows: How can the comunity
                                            ist determne what services are needed at each

                                     patient encounter and provide them in a practical and

                                     timely manner?


                                     Paqe 6, Paraqraph 3 . The statem nt is accurate in its
                                     assessment that there is little consensus regarding

                                     standards of clinical pharmcy care as applied to
                                     patient need. There are good reasons for that, and

                                       ,;"H:: l." E:c:so;ms may add difficulty to the implementation
                                      nf  T.Ec mrendations II. and III.

                                     First, patient needs vary with time, i. e., each

                                     evaluation of patient needs is like a snapshot of a

                                     moving or changing object. This constant change makes.
                                     it very difficult to set standards based on needs that

                                      are useful. Initial   encounters with patients who are
                                     on multiple drug regimens and those whose diseases are

                                     not adequately controlled, will require more

                                     comprehensive services. Once that patient is
                                     stabilized, the need for intensive monitoring will

                                     drastically decrease. To continue monitoring those
                                     patients intensively just because they are on multiple

                                     drug regimens would be an inappropriate use of

                                     pharmacists' professional time. Therefore, approaches
                                     like the one proposed by Koechler, et al., in the

                                     American Journal . of Hospital Pharmacy         (AJ),
                                                                                     which
                                     incorrectly assume a continual high level of need, will

                                     resul t in wasted pharmcy efforts. The authors point
                                     out these problems and others in their discussion

                                     section including the fact that a large percentage of

                                     patients that need intervention did Dot fall into their

                                       cri teria for service.
Page 4



          Second, the ability to determne patient needs and the
          extent to which these services are provided is not

          consistent among pharmacists because of the following

          reasons and other factors:
               the extent of the database available to the

               pharmacist;
               thp. knowledge of thepharmacist in both drug and
               disease information; and

               the ability of the pharmcist to collect   and
               integra.te drug, disease, and patient data to
               identify and solve drg rela ed problems.
          Pace 6, Paraqraph 4 . Two approaches were cited and

          listed as Q    erent perspectives. A careful review 

          the articles listed and other work on  simlar  subjects
          by these authors revealed that these are not different

          perspecti ves, but were v riations of the same concept.


          Dr. Linda Strand' s work was developed to teach students

          a ski 11 not generally taught in pharmcy school.
          Primarily, pharmaceutical education has been

          accomplished through memorization and requrgi tation.
          Clinical pharmacy practitioners have long recognized

          that students were not taught clinical problem . solving
          skills.  Dr. Strand has formlized a process that
          forces (teaches) students to utilize clinical problem

          solving skills via the collection and integration of

          patient and disease databases with  drg databases.
          This is one of the end products of Dr. Strand' s work on

          student-centered problem oriented teaching methods.

          The difficulty with her comprehensive approach is that

          it is very time consumng and, therefore, is not
          practical to use for all outpatients in a busy pharmacy

          practice setting.
          Recognizing the difficulty of providing a comprehensive

          approach to all patients, the authors of the 

          article try to find a process to identify those

          patients that most nee a comprehensive approach to

          clinical pharmcy services (Dr. Strand' s process).
          Unfortunately, their criteria-based process did not

          address changing needs over time, plus it failed to

          identify a large percentage of patients who required

          pharmacy intervention. 

Page 5


           What both studies ignore is the medical model- of

           patient needs asseSBment which operates on the

           assumption that all patients at each encounter get

           their needs assessed via a more practical but shortened

           version of the comprehensive approach of the

           tradi tional complete history and physical.
           Recommendation III.                             Needs Based Conce t

           Paqe 20

            Rather than focus on developing a set of needs based

            standards, priority should be placed on developing a

                                                    for pharmcists
           . practical standardized review processe.,
            to use for each patient encounter, i.      a shortened

            practical version of Dr. Strand'  s process.  Needs based
            sta.. darcs for every patient may be impossible due to
            the constantly changing nature of individual patient

            needs and the variability among individual pharmcists
            in their ability to assess patient needs.    This process
            would be directly comparable to the medical approach of

            patient needs assessment (see diagram below). One
             approach which uses a shortened practical pharmcy
             needs assessment process,               simlar to the
                                                       medical model,
             has been developed by IHS as presented in Attachment B.

                          PAT!ENT NEEDS ASSESSMET PROCESS


Comprehensive                  . Strand' approach               Complete physical
workup                                                          and history


Impractical and too

time consumng for
use in every patient

encounter.
Practical shortened        Not developed
                       Lited   history and
                                                                physical based on

version                                                         chief eomplaint (problem

                           Maybe some combination

Applied at every           of lES approach

patient encounter              (process) and AJP
                               approach (indications)
Outcomes



Large %             Sma II %                 PS%    Succeuful         S:   Identified
successful          requiring more           succenful. Dx            as requiring
intervention        comprehensive            and treated              comuhensi ve

                    needs assessment
                                 workup
Page 6



     A practical snortened version of the comprehensive approach

     resu         ) successful needs assessment and intervention
              tS 1n l 


     in the vast majority of patients, and (2) identification of

     those requiring comprehe sive evaluation. Physicians do not
     perform a complete history and physical on every patient

     they encounter. They reserve that time for those who need

     it most.


     Descri ion of Clinical Pharmac Services
     ?ep   esentat+on',
                                           findinqs, " and
     The breakdown of clinical            pharmcy services into four groups
     is generally correct. However, the assumption that within

     each component there is a continuum and the description,

     especially the graphic representations, of that supposed

     continuum is inaccurate andlor misleading.

                        tient Counselinq, " Paqe S This graph

              creates confusion and inaccuracy rather than clarifying

              concepts because it attempts to illustrate a continuum

              that does not exist. Instead, it describes a

              combination of apples and oranges, including

              prospective drug utilization review (DUR), pharmacist
                 agement of chronic patients, and some patient

              consul tation        activities.
                             dJ1V, " 'tour Compo   ts of C:+inica:+ Pharm
                      rt:,    C::ra'O      on o     ent Informtion, " Paqe
               IV-
              While most of the important items are listed, they are

              grouped improperly by source rather than by patient

              need- based continuum that this report is trying to
              describe and propose. The reason for the pharmcist
               collecting a database is to      dete:mne what type and
               intensity of clinical       pharmcy services the patient
               needs. The continuum should address which type of data

               are most important to dete:mne patient needs. Where
               the pharmacist obtains the data, e.g., from a medical

               record, patient profile, physician interview, or

               patient interview, is a totally separate issue and is a

               function of the practice environment and the

               pharmacist' s professional comtment to provide
               clinical services.

              " ""'
                 "'=

Page 7



          1',.           . PI'TaOT!lph-, "    (2\ Prospective DruCl
          Uti 1"       ;r,   r.   eview DUR
          The report dces not clearly define the DUR. Based    on
          what is included in the report, it appears to be too

          narrowly defined around ADRs and drug interactions. 

          more appropriate definition of CUR appears on page

          paragraph 2, of the introduction, i. e ., a review of the
          patient, drug, and disease databases to provide those

          functiolls listed in the second half of the paragraph.
          IHS utili2    the term negative patient outcomes 


          encompass those three functions. The focus of clinical

          pharmacy practice is this review process to determine

          the need for pharmacy intervention at each patient

          encounter.   Attachment C presents the IHS standards of
          practice.   Standard I of the IHS standards is a more
          comprehensive version of a prospective CUR process.

          In prospective CUR processes the pharmcist compares
          therapy against the criteria such as those listed in

          the IHS standards. How much, how well, and whether the

          DUR is done at all is determned by:
                   the extent of the database available to the

                   pharmcist
                   thp. knowledge of the       pharmacist in both drug and
                   disease informtion 

                   the ability of the         pharmcist to collect
                                                            and
                   integrate drug, disease, and patient data to

                   identify and solve drg related problems1
                   the pharmacist' s efficiency in performng item c,
                   and once the       pharmcist has optiml data,
                   knowledge, integration skills, and efficiency

                   (i terns a- d), th n workload becomes a factor 1 and
                corni tment for providing these services.
               hs on faCle U!APpendj.x IV- 4 on Prospective            DUR

          Once again as in the collection of patient informtion,

          no continuum exists and the continuum presented in both

          graphs consist more of how it is done rather than what

          needs to be done.

page 8

                 tie   t C     5elinq, Paqes IV- 4   and IV-
          Paqe IV- 4, Paraqraph 3 . The first statement on patient
          counseling about pharmcists giving              informtion is 

          incorrect. The ultimte outcome of . patient counseling
          is to verify the patient' . understanding of how to
          appropriately take the medication prescribed. That
          requires the patients to understand: (1) why they are

          taking the medication, (2) how they are to take it, and

          (3) what to expect (i. e. expected outcomes, side
          efrec and what to do in each situation).
          Paqe IV- S, Paraqraph 2 . IRS' s 3D years of experience
          in patient counseling confirms the efficacy of private

          face-to- face consultation as the preferred mode. In
          addi tion, research and experience have identified a

          potentially even more important factor in determning
          the efficacy of patient counseling. Learning has been
          shown to be increased when the person receiving the

          information becomes actively involved in the process.

          By the time patients reach the pharmcy they have
          already received some degree of education from the

          physician or other provider, previous experience,

          and/or personal research.
          IRS uti lizes all three of these principles in

            unseling patients (private face-to- face, active

          involvement of the patient, and utilization of prior

          knowledge). Using open ended questions, the pharmcist
          verifies that the patient understands critical

          information. If incomplete understanding is detected,

          the pharmacist merely fills in the gaps. The
          consultation concludes with the patient verbalizing or

          the patient demonstrating his/her understanding of key

          elements. This is a patient needs based approach to
          patient consultation. Attachment C presents a sumary
          outlining the interactive, patient needs based approach

          to patient consultation taught to IRS pharmcists.
          ?aae            S,   araqr
                            ph 4             Since the purose of
          counseling is to improve compliance, i. e., " make        the
          patient better, " informtion regarding expected
          outcomes and unexpected effects are among the most

          critical elements that patients need to understand.

          Among the major causes for noncompliance are the

          patient' s lack of understanding of:
                       what the medication is supposed to do (desired

                       effect) I
                       what to do if it does not happenl and

               ..;...

Page 9


                  :. w,c;cpe:c ed things might happen (adverse

               effects), and what to do if they occur.

          Paqe IV- 6. Paraqraph 2. Follow UP Activities and
          Moni torinq


          This paragraph discusses prospective DURs, or what the

          IHS calls pharmcist managed therapy (Standard 6, IHS

          Standards of Practice (see Attachment D), not patient

          consultation, and belongs under DUR or under pharmcist
          managed care. It describes the patient need assessment

          process that occurs when patients on chronic

          medications come in for refills. Therefore, the

          statement that they (the scientific informtion
          pharmacists) raise their counseling to a higher level

          should be eliminated.
          Graph " Physician Consultation, .   Paqe rv-

          A better term for this section would be

          Physician/Pharmacist Interaction/Communication.
          There are four basic reasons for pharmcist- physician
          communications:
               Physician telephones a prescription to the

               pharmcist.
               Physician collects or verifies portions of

               patient/disease State/drg database.

               During the needs based prospective DUR, the

               pharmacist detects a therapeutic problem with

               safety, patient effectiveness, appropriateness, or

               cost effectiveness of the prescribed therapy and

               calls to resolve it prior to dispensing.

               The physician calls to request advice or

               information about a drug, what drug to prescribe

               in a particular situation, etc. Only this case is

               a classical consultation in the physician to

               pharmacist tradition.


          Graph " Physician Consultation, .   Paqe 5

          There is no continuum depicted in the grap

          consists of who does the calling, where they are

          located, etc., rather than a continuum of functions

          regarding sophistication of pharmcist- physician
          communication.
Page 10


       Recor.... ;:;:dat ion   T"!T    Reqardinq Maximal Level of Service,
       Paqe
              The statement that APhA/AACP prescribe a maximl level
              of service is inaccurate. This assumption and the

              graphic depictions (graphs 1-4, pages 4-5) do not

              follow the methods used by national standard setting

              organizations to develop professional standards of

              practice and the APhA/AACP standards. Probably the
              preeminent organization in the field of standard

              setting and compliance monitoring is the Joint

              Commission on Accreditation of Health Care

              Organizations (JCACO). JCACO, through its
              experience, has looked at health care delivery

              functions and has developed a prescribed process to set

              Tnp st ndards. In each functional area, the range of
              services stretches from none to           optiml.
                                                        Once the
              range is established, they select their standard

              somewhere between none and optiml and define this as a

              minimal standard.
                                  Heal th    Care Fuction
none
                               ::.inima 1


               This approach was used to promulgate the APhA/AACP

               standards of practice. The standards, which are

               operational standards, are miniml, and lie There
                                                            definitely
                                                                  are
               to the none side of the graphic depiction.
               Bome shortcomings in the design of the APhA/AACP

               standards that need to be modified. Considering that
               the standards (1) were a first attempt to design

               national standards, (2) represented a consensus among

               representatives from all areas ofpharmcy
               practice, and (3) utilized a limting   approach based on
               a task inventory analysis, the document still

               represents appropriate miniml standards for the 1990s.
               Wha t needs to be done is to tie up those standards so

               that they are functional rather than task inventory

               based. This process should involve representatives
               from other major professional organizations.


               In addition, a shortened version of Dr. Strand' s need

               based approach (a pharmcy version of the medical

               approach) should be developed for use at ea h patient

               encounter. This process will be quick, take Care of
Page 11


           the vast majority of patient needs, identify those who

           need comprehensive time consumng services, maximize
           limi ted professional pharmcy resources, and achieve
           improved patient outcomes and cost savings

     Other Comments

           A national task group should be formed to develop a



           intervention.
           shortEned pr ctical version of Dr. Strand' s process

           modeled after the medical approach that can be used at

           each encounter to determne the need for intensity


           The" APhA/AAC? involve other professional organizations
           and redo their standards of practice based on

           functional rather than task inventory .
           Broaden the definition of prospective DUR to include

           all adverse outcomes.


           Appendix II, page 11-1, . Pharmcy Settings.   It is
           unclear where managed care practice and mail service

           fall in the definition. Certain managed care settings
           resemble community pharmcies while others are more

           like insti tutions 


           Also include roil service and managed care settings in

           Appendix II, . Pharmacy Settings.

                            OIG RESPONSE TO PHS' COMMENTS-



We ar grteful to PHS for its very thoughtful and constrctive response to the drt                         repon.
The PHS' s concurrence with the recommendations directed to it represents a significant
committment to improving pharaceutical care, parcularly for patient populations that suffer
most from drg-related ilness.

We agre that the Indian Health SeIVice provides an excellent practice model for
pharaceutical care. Our reason    for not including it in our case studies was that ilS more
closely resembles a managed care system rather than a more typical community setting as
defmed for puroses of our repon. This is not to say, however, that the ilS model has not
influenced the practice of high quality clinical car in community pharacy settngs. In the
course of conducting our study, we inteIViewed a number of expert in the field who
consistently referrd to the ilS system as exemplar. Several of Ute most influential leaders
in the field of pharceutical care trned with the ilS and have devote much of their
professional carers to       trsferrg ilS stada to other practice settgs. We acknowledge
the ilS' sreputation for innovation and excellence in clinical pharacy car and regrt that
the scope of the study did not permit a more extensive examnation of maaged car and
institutional settings.




Our responses to PHS' s technical comments ar                       as follows:



                Standrd setting and needs assessment process: We agre with PHS and have
                made revisions in our discussion of Recommendation Il.

                Description of components of clinical           We appreciate the thorough
                                                                         pharmcy:


                crtique PHS has provide We have made a number of the suggeste changes
                in both grphic presentations and text. We have not ma al suggested chan­
                 ges for severa reasons: Firt, the descrption of components as presente in
                 the repon is meant to descrbe the spectrm of servces that currntly exists,
                 and not, as PHS suggests in its comments, what 

                                                                                    should   exist in a nees- based
                 system. Second, the four-component descrption is not meant to present the
                 best or the only constrct by which the functions of pharceutical car can
                 understoo. Essentialy, it reflects the way in which our case-study phar­
                 macists and other expert descrbed their work as well as the obseations we
                 made in those practice settngs we visite Consequently, it seIVes only as an
                 analytical and descrptive tol in ths repon, rather than as a stadad. Third,
                 because the individual components of the clinical pharacy as we descrbed
                 them in the repon ar dynamc and relate to one another in complex ways,
                 some individual functions do not fit neatly within a single component. For ex­
                 ample, the PHS makes a goo case for including what we have called "follow­
                 up counseling" under the DRR component, rather than the Patient Counseling
              component. We submit that because the tasks involved in " follow-up " counsel­
              ing include data collection, DRR and patient counseling. there is not one fit for
              this pancular function. Our decision to classify it as we have was drven by
              the fact that most of our case-study pharacists perceive it as par cif their coun­
              seling role.


Again, we thank PHS for its support and for its incisive comments, which we believe have
improved the quality of the repon.
,-C'                                           11"1 ..

   .te
              Gail R. Wilensky, Ph.   D(Y
 "ro""        AdmitrtQr ""             t -



  SIJJect .   OIG Draft Report: '"e Clcal         Role of the Community Phacit,
              OAI-Ol- 89- 89160, and "Te Clcal Role of the Community Pharmacit:
              Cae Studies, " OAI- Ol- 89. 89161
  'To

              The Inpeor General
              Offce of the Secretary

                   We have reviewed the subjeCt repons. One of the repons address the
              barrers to the proviion of clica servces to ambulatory patients in community
              phannacy settings. The ot.her repon presents    ca
                                                             studies of community
                                                                           these clica
              pharmacists who have sua-.eeded in providing a broad raee of
              servces.

                                recommend that HCFA develop a sttegy, indivdua
                                                                                    and with
                    The report
                                                                       clca pharcy
              the Public Health Servce, to reduce barrers to providing
                                                                         not concu with
              servces, pacularly for ambulatory elderly patients. We doclca
                                               ba a strateI) to improve        pharmcy
               recommendation. HCFA aleady
               servces though its manged care intiative. Thoug the maged cae intitie,
                                                                 uttion revew systems
               many $tgte Medicaid prOaram have or are teti& drg                        ca1:d for in
               and capitation programs that encourage the kid of cordinated care
               the OIG report Unfortnately, :t.: repon did not address these effort by HCFA
               and the: States.

                     Medicare coerage of drgs      for outptients is cmme1y lited       in scpe

               and, for the most par do
                                                                              beneficiares could
                                             DOt pay for drgs that ambulatory

               obtain from communty     phaci. Thus th remmendations caot apply to
               the non-   Medd popWaQon of  Medica beneficies.

                     Moreor, becaus of the lited         scope of   the Medica outpatient drug


                                  servces.
               benefit, we do not have sufcient data fies
               utiltion revew program tht would be needed

               clinica pharacy
                                                             to establih the comprehensive drug
                                                                    to monitor the effectiveness of
                   ..""
         For Medcad, however.    coeraee of   presption dres is optional for the
  States. The lcve.l of outpatient drug coerage vaessiiIcantl acros the States.
  Although $;.;        ; lrOciccct    broad Federa requirments. they
  responsible for admiterig their own Medicaid program. Thus whie no single
  strategy developed by HCFA to reduce baers to clic: phaacy servce
  would be applicable to all States, seera States (e.&- Caorna and Kentucky) are
  leaders in providing clica pharcy servccs to the elderly in community
  pharcy settgs. It is unortunate that the 010 report doc not r           these
  importnt effort in ths area.
     HCF A is     al
                   engaged In reseach and demonstrtion project studyg
 method to reduce the inappropriate us of c1p by the elderly. The Uniersity
. of Wisconsin has developed a set of quaty    ca indicators that us Medcad      drg
 and hospitaJ clai to monitor quality of cae  in Medicad nuring homes. The
 University of Miesota is studyg the us of pschotropic drgs among nuring
 home residents. To the eXtent nuring homes ar servd by community
 pharacies for their patients ' drg needs these studies wi help to develop
 HCFA' s strategy. The role of the communty pharacy in the cae of nuring
. home patients is another area not well cored in    the Ola repon.

         With the recent repeal of the Medicae Catatrophic Coerage Ac: drug
 belicfit, we are reaessing our resech and demonstration priorities in the drug
 area.   As we develop our strateiY, we wi consider OIO' s suggestion tht
 include research, dcmonst!   tion and education effort to reduce   baer5 to clinical
 pharmacy care.

         Thank you for the opportnity to revew and comment on these draft
 report.
                      OIG RESPONSE TO HCFA's. COMMENTS


We thank HCFA for reviewing the report and regrt its nonconcurrence. We are pleased to
note that HCFA already conducts several activities that parally address the spirit of our
recommendations. Nevertheless, we believe that the problem of drg-related   ilness is
sufficiently crtical to   wart a more   strcture and comprehensive   depanmenta response
that combines the best effons of HCFA and PHS.
 American             2215 ConS\lutlO   ""ue, f#
 Pharmaceutical       Wa-hlngton , DC 20037                          Nilil Prfesl
 Association          (202) 628-410 FAX (202) 783- 2351
                                                                Th

                                                                       of   Phfr

March 6 , 1990


Richard P. Kusserow

Inspector Gc ral
Department of Heal     and Human Services
Washi:ngton , DC 20201
Dear Mr. Kussero


The American Pharmaceutical Association is pleased to respond to the

draft report of the Office of the Inspector General entitled "

Clinical E",.- c. L c:co_. mitv Pharmacist . As the national professional
society of pharmacists , we are gratified by the substantial analysis that
our profession has received in recent reports from your office. More
importantly.   e are pleased that the critical role that pharmacists play

in providing quality health services to patients is finally becoming

better understood at the federal level. We appreciate the department'

recogni tion of APhA' s leadership role for the prof ssion on these issues.

Our comments include both general reflection on the report , its findings

and recommenda 
 lon , a. well as specific responses to the recommendations
addressed dir cr.ly tC' APhA. We ask that they be carefully considered in
the preparatior. of the final report on this subject.


We are extremely enthusiastic about both the substance and tone of this

draft report. Your office , through a thoughtful process of information

collection , site visits and staff analysis has developed a report which
articulates many of the critical elements of progressive pharmacy

practice that APhA has espoused for many years. To that end, our

comments, and criticisms , are offered in the spirit of a shared mutual

interest in advancing the profession of pharmacy and the services it

offers to pa   tients .
The draft report states that its focus is on the services available to

elderly ambulatory patients in the community pharmacy setting. However

the concepts, principles and practices outlined 1n the report apply

universally to all patients that pharmcists serve. In our previous

comments to you on the OIG report on " Medicare Dru Utilization Review

in March of last year , we did note the particular need that elderly
patients have for effective review and magement of their medication
regimens. The drug therapy of eiderly patients is often complex as a 

result of multiple diseases , multiple prescribers and physiological and

other changes in medication response as a result of the aging process.

But complex regimens and informational needs are certainly not exclusive

to the elderly.


In that same letter , we drew some distinctions , both operational and

semantic , bet,,' een the OIG terminology of " prospective DUR" and the
profess io ' s concepts of " drug usage evaluation " or DUE. We would
    .:.


Richard P. Kusserow

MArch       6 I




reiterate that the assessment of a patient' s current drug therapy prior

to the ini t:iation of a change (new medication added , medication deleted.
dosage change , etc. ) is more appropriately referred to as drug regimen

review (DRR). This key feat:ure of professional practice is the sole
province of pharmacists, and is the pivotal point at which the unique

knowledge , skills and competence of the pharmacist can be brought to bear
to improve the quality of patients ' drug therapy. It is far aore      thn
 prcblE i1= :ificaticn and resolution " or " risk management" as described
in t e draft   report:. Rather, it is the opportuity for pharmcists
working wi th patient: and prescribers, to better assure high quality
therapeutic outcomes.


We also suggested in that: let:ter that because the term DUR is often
associated purely with quantitative assessments of drug use , the term

drug usage evaluation (DUE) better describes the type of structured

qua       ,. - "'Coo, f. rocess that assures safe , effective and economical

medication use. The March 1989 OIG report on this subject very

effectively noted that quality of care issues are a principal reason for

such progran:s.
RESPONSE TO FINDINGS AN THE OVERALL REPORT

As ment:ionec previously, APhA believes that the draft report was

deve loped in a sound and balanced manner, and offers substantial

inLor         r.c i ght. The observation by OIG staff of commity
practice. around the United States where clinical services are currently

being provided was a critical element of the report, and
OIG for that:      effort.
                                                              AP
                                                               applauds

APhA i. in general agreement with the five findings outlined in the body

of the report:


Findin2 I
          o There are four components of clinical pharmcy pract1ee: collection
            of patient information, prospective DUR, patient couseling and

            physician consultation. Each of these components encompasses a
            continuum of possible services.


We have previously stated our concerns about the term . prospective DUR"

and will not rei terate that here. We would submit that certain screening
activities and physical assessment funetions , e.g. blood pressure

monitoring, should logically be included in the diagram depicting

collection of patient: information. Further. we suggest the addition of
such activit:ies as drug- food interaction screening, evaluatio

laborat:ory data and assessment of patient compliance as part of the drug
regimen revie process diagram. . The process begu in the patient
information collection phase is dynamic, rather than static, and is

integral to the effective drug regimen review function of the

pharmacist. It is also critical to note that the pharmacist is not

simply a screener of information but analyzes . interprets and acts upon

the data presented. This should be reflected in the diagram as well.
 . . .             ..- ----.. -....


Richard P. Kusserow

March 6 . ' c -,

P,:!?e ­

The diagram describing pdtient counseling activities includes both

information exchange and monitoring functions , each having a necessary

feedback loop and interaction with the patient. Similar information

sharing and exchange functions are depicted in the physician consultation

diagram. As the continuum oY these functions proceeds it becomes clear
that direct , face-to- face contact betWeen pharmcist and patient and a
close . collegial r lationship with the physician (or other prescriber)
are essential tc 
      ize the quality of the pharmacy services provided.

Thus' we would suggest that the report' s statement in another section that
    differences in clinical services provided by (mail order pharmacies 

versus other (community) settings may be more theoretical than actual" is

not supported either by the model presented in the report , or by the

experiences of the OIG staff in their site visits to the pharmacists

described in the report' s case studies.
Findin2 Jr
         o There are no clear standards that define theoptim   mix of
           clinical pharmcy services in the context of individual patient
           need.
APhA agrees that pharmacy is still maturing as a clinical profession, and

that much addition"l wcrk :-emains to be done . in identifying standards of
clinically-oriented pharmacy care. We are currently working with the

American As oci,,"ion oi Cclleges of Pharmcy (AACP) in a process of
examination and revA1 irlAcion of the Standards of Practice for the

Profession of Pharmacy that were jointly developed by the tWo

organizations in the 1970' s. That process may reveal opportunities to

incorporate additional standards to address this issue.


Findin2 III


         o There is strong evidence that clinical pharmcy aervices add value
           to patient care and reduce health care utilization coats.


Needless to say. we are extremely gratified to have eIG reach a

conclusion that the profession has been sharing with others in the health

care and regulatcry communities for several years. This acknowledgment

should finally help set the stage for fundaental Change in analyzing the
costs and benefi ts of pharmaceutical care. and for the development of

progressive payment methodologies for pharmacists ' clinical and cognitive

services.
Findin2 IV


     o Clinical services are not widely provided tu    comity pharmcy
          settings.
The case studies present a very exciting and encouraging picture of

several current practices and the potential for clinical practice in the

communi ty pharmacy. However, the draft report accurately notes that

these services are unevenly provided in the communicy pharmacy setting.

Richard P. Kusserow

March (
 Page -

Yhile this is regrettable , the barriers to the provision of these

services , outlined in Finding V , are a critical contributor to this
problem. We believe that it will be necessary for the profession,

governent . other providers , patients and purchasers of care to work
cooperatively if these barriers are to be overcome.


Findin2 V


     . 0 A. Barriers that impede     provision of clinical pharmcy services
             include the economic structure of the retail pharmcy industry.
             interprofessional conflicts, limitationa on informtion available
             to pharmcists. saps in pharmcy trainin and uneven patient demand.


        o B. There are some commity pharmciata who      provide a broad range
            of clinical services to their patienta. Nevertheless, ' the methods
               y use to overcome barriers do not auggeat aimle or imediate

             solutions.
The barriers identified in Finding V-A are substantial. APhA believes

that the discussion of them found in the draft report presents an

excellent and accurate sumary. We take particular note of two items
wi thin the economic area , primarily because of their relationship to
recommendations cade to APhA in the report.


We stronglY concur 
  hat the focus on product- based reimbursement for

pharmacy s r\'i    , while excluding compensation for cognitive services,
is a critical negative incentive for the development of these services.

APhA' s Cognitive Services Working Group, established in 1987 , has focused
substantial effort on identifying and promoting the value of compensation

for pharmacists ' cognitive services. We have appended to this letter for
your review a bibliography developed by the Working Group on this

subject. APr is sincerely interested in working with governent and

other health policy groups to address this       fundaental barrier. .
APhA also supports the effective and appropriate use of pharmacy

technicians in various types of pharmacy practice. The draft report is

accurate in stating that the issue remains one of controversy within the

profess ion. However, APhA believes that the training and use of

qualified pharmacy technical personnel under the supervision of

pharmacists will enhance pharmcists ' abilities to render the
professional and clinical services that pharmcists , uniquely, are able
to provide.


APhA believes that these findings, along with our comments about them,

can contribute substantially to a better understanding by p01icy makers

of the potential for enhanced clinical pharmacy practice in the community

setting.
 Richard P. Kusserow

 March 6 , 1990

-Page-
 RESPONSE TO RECOMMNDATIONS

 The draft report' s recommendations are made to the U. S. Pulic Health
 Service (USPHS), the Health Care Financing Administration (HCFA), the
 National Institute on Aging 
 NIA), APhA, AACP, state governents and

 state pharmacy associations. Consistent with our comments above, APhA

 supports:
         o the recommendation that the US PHS and HCFA , individually and
           collaboratively.... . develop a strategy to reduce the barriers to
           clinical pharmacy services, particularly for ambulatory elderly

             patients.
 The types of demonstration projects and research grants outlined in this

 recommendation appear to offer real opportunities to measure the effects

 of clinical i'harn:iocy on patient outcom s J! health care costs. APhA
 would encourage USPHS and HCFA to consider these recommendations to them

 and would be very willing to work cooperatively with these organizations

 in appropriate ways to assist in the process.


         o the recommendation that the NIA ... take a leadership role in
           developing risk indicators and treatment priorities for elderly,

             ambulet          ry patients.

 APhA generally supports 
  his recommendation, with the understanding

 mentioned abovp that pll patient categories ultimtely deserve

 appropria te leve 1 of clinical pharmcy services at the community level.
 The elderly, however, are certainly deserving of focused initial efforts

 in this area. APhA would strongly encourage NLA, should it accept this

 recommendation, to actively involve the pharmacy and medical professions

 in any work it undertakes in this area.


         o the recommendation that APhA and AACP .. . develop standards of
           practice that address all components of clinical pharmacy care on

           the basis of patient need.


This recommendation , made directly to us, is both encouraging and

daunting. APhA is currently engaged in a project with AACP to revalidate

and , as appropriate , further evolve the profession s Standards of
Practice.     en originally conducted in 1978, this project was envisioned

as the first step in a multi-step process to determine practice

standards , define the necessary competencies to practice at the level of
the standards , and develop programs to assure pharmcists obtained and
maintained those competencies. APhA remains committed to this activity,
subject of course to staff and budgetary resources. We would     ertainly
welcome the opportunity to compete for federal grants or other resources

to support this activity if they were to be made available.


  e recognize the need .for evolving standards to encompass the activities

 and services of contemporary clinical practice. Nevertheless , much work

 must be done to address the barriers identified in this report before a

 truly national standard of clinical pharmacy care can be developed. 


 are pleased to take the recommendation under advisement and will make

 every effort to keep the departm.nt informed of progress in this area.
             .., ...




Richard P. Kussero

Mo......

Page ­
           o the recommendation that state governents.. . revise pharmacy
             practice acts to allow maximu use of technicians in community

             settings. .. (and that) APhA and the state pharmacy associations

             . . . take a leadership role in encouraging more extensive and
      effective use of technicians in commity pharmcies.
Following Ln aciopcion of current policies on pharmcy technician by the
APhA House of Delegates in 1988, APhA has been exploring the development

of new materlals to assist pharmacists in the training and effective

utilization of pharmacy technicians. These materials, once developed

would be made available to state associations to use as appropriate in

their activities in this area.  Several states have evolved rather
sophisticated programs for pharmcy technician training and certification
and are willing to share information and experience with other state

col1."&"". ...v ..re 1ncerested. AP agrees tht          a more thorough
examinatio  of the effective use of technicians in community pharmacy
practice is warranted        , and will seek opportuities to
                                                      work with other
national associations and state pharmacy associations on this issue.


In closing, we once again commend the OIG for its comprehensive and

important draft report on the clinical role of the commity pharmacist.
APhA eagerly seeks the opportunity to work with you whenever possible and

appropriate to adva ce patient-oriented pharmcy practice in all settings.




                         cJ.
             . Gans. Pharm. D.

             ive Vice President




0475K/900381
                    OIG RESPONSE TO APHA' s COMMENTS


We thank APhA for its careful consideration of the repon and applaud the association
willngness to implement our recommendations on stadad settng and expanding the use of
pharacy technicians. We acknowledge that these complex issues wil require thoughtful and
creative solutions and we believe that with APhA' s leadership, clinical pharacy seIVices can
be expanded to improve patient car significantly.

On a more technical note, we have made changes in terminology suggested by APhA and have
added language to emphasize the pharacist s role in analyzing and evaluating patient data.
                                                               r-IJlI"'I         L!:U1       l.rl.:II
                                                               4630 Montgomery Avenue
                                                               Bethesda. MD 20814


                                                               (301) 657. 300




  Apr il 11. 1990



 Richard ,. Kusserow

 Jnspector General

 Departme t of Hea.th and Human Services
 Room 5250
 Cohen Bu i Id ing
 330 Independence Avenue. SW

 Washington,                  2C2C=

 RE:           Draft OIG Report:        The Clinical Role of the Community Pharmacist


 Dear Mr. Kusserow:


 The American Society of Hospital Pharmacists (ASBP) is the national

 professional organization which represents over 24,
                                                     000 pharmacists who

 practice in 0rganized health- care settings such as hospitals, home-care

 agencie:;. I,E         - t,. me llJtenance organizations, outpatient clinics, and skilled
 nursin                  P is pleased to provide comments on the draft eIG
                     '" t;


 report entitled. The Clinical Role of the Communit
                                                                                Pharmacist.
ASHP is encouraged by the eff ice of the Inspector General'
                                                            s increasing

recognition of the importance of the pharmacist'
                                                  s role by its study and

analysis of clinical services and by eIG' s increased willingness to work with

organizat ions represent ing the pharmacy profession. We also
                                                               appreciate the

will ingness of the eIG' s staff to study and understand issues of importance to

the profession. The eIG staff has captured much of the
                                                        essence of the dilemma

facing the community pharmacy regarding the implementation of progressive,

patient- oriented pharmacy services.
The fundamental purpose of the profession of pharmacy is to serve a. a force

in society for ensuring safe and appropriate use of drugs.
                                                             Pharmacists should

pursue this goal by promoting optimal use of drugs, including the prevention

of impr oper or uncontrolled use of drugs, and by providing authoritative drug

information to other health-care professionals, patients: and the public.


Institutional pharmacists have been engaged in the review and asse
the drug therapy of individual patients for many years.            sment of
                                                         Our members, and the

profession as a whole, have the education, technical expertise, and

professional responsibility and mission to perform those activities that come

under the rubric of clinical pharmacy services.





                Pharmacists dedicated 10 advancing rational drug therapy in organized healtHre sellng
The profession of pharmacy involves a good deal more than just dispensing

med i ca t ions. Pharmacy is a knowledge-based system, which renders a health
service by concerning itself with understanding drugs and their effects upon

people. ASHP bel ieves tha t pharmacists should develop and provide clinical
pharmacy services commensurate with the needs of each organized health- care
setting and individual patients in that setting. ASBP' s philosophy on the

pharmacist' s clinical role is stated in the . ASBP Statement on the
Pharmacist' s Clinical Pole in Organized Health-Care Settings , which is
 included in the apr   diy..
Pharmacists in organized health settings have provided progressive, clinical

services for over a decade. The success of clinical services is based on (1)

preparation and use of complete and centralized medication information for all

patients:  (2) prospective or concurrent routine monitoring of the drug therapy
of pat ients: and (3) ongoing communication and education between physicians,

pharmacists, a:.- Qt:. ". health- care professionals.
The comments that are contained in this letter are a compilation of

observations from ASHP members with expertise in providing clinical

pharmaceut ical services in ambulatory settings. Additionally, ASBP' s comments

on the draft eIG report are based on the tenets stated in the previous

paragraphs and on a knowledge base of clinical services developed through

years of experie ce in the institutional setting.



GENERAL COM!IE:I'::;


       It is our understanding that the original report on elinical services

       was requested as a study of the feasibility of these services with

       regard to drug use in the elderly because coverage for outpatient drugs

       was to expand wi th the passage of the Medicare Catastrophic Coverage
       Act. It is  also our understanding that since the repeal of the Act that
       clinical pharmaceutical services are being studied for use with state

       Medicaid programs.


       Although the elderly clearly represent a large, vulnerable high-risk

       group, we believe that the focus of the eIG report was unnecessarily

       narrow. Given the expanded use of the recommendations from the report,

       it would seem a visable to include other patient populations at high

       risk in the case studies and recommendations from the report. Examples

       of other patient populations include pediatric patients, patients with

       chronic renal failure, cirrhotic patients with ascites, immunosuppressed

       patients, patients who are on multiple medications, and patients with

       poorly controlled diseases like refractory 8eizure disorders.


II.    The draft report states that it discusses all possible pharmacy
       practices. The ASHP reviewers did not agree; it did not appear that the

       case study methodology permitted the identification of ALL typs of
       ambulatory, community-based practices. Analyses of the following major
        . ,



         ty-pe. . JJ.
                 phoHm..cy. pract ices were not included in the report: their
        inclusion would appear to strengthen the recommendations made by the

        repcrt and would provide a better rounded view of the practice

        environment:
             Health maintenance organizations


             Ambula tory services offered through the Veteran s Administration


             Primary and ambulatory care offered through the Indian Health Service


        In each of these practice areas, there are outstanding examples of

        clinical services that are being offered to ambulatory patients. ASHP
        would be happy to provide you with the names of practitioners in each of

        these settings who could provide your office with important feedback.


I II.   The interc  ang€able use of the terms and concepts of drug utilization
        rev iew (DUR) and pros ect  ve moni tor ing throughout the report creates
        confusion. As the definition on page 1 states: " DUR is a       formal ' program
        that uses comparison with explicit standards or eriteria with a planned

        follow- up to improve care' and Pract ice. " In the communi ty sett ing, the
        clinical pharmacist usually perform DUR, as deseribed. The preferred

        term for use in the OIG report is . prospective assessment and

        monitoring, or " drug regimen review and monitoring " (DRA). These terms
        involve clinical assessment of the patient by following a elinically

        appropr iate i:1ter"ention (changing therapy or monitoring carefully for

        efficacy and toxicity) in light of the risk-benefit ratio for the

        individual patient. In this case, the professional' s judgement is based

        upon general knowledge (of drugs, diseases, patient behavior, ethics,

        and economics) and . professional experience, not on explicit    criteria.

SPECIFIC COMMENTS AND RECOMMENATIONS FOR       CHGES

There are two major structural areas within the document that need to be

reviewed and revised. They include the eoncept of a needs-based system and

the descr ipt ion of clinical services.
        The Needs-Based Concept


        A. Page 6, paragraph 2: The question raised in this paragraph is the

           key issue in the report and can best be summarized as: Bow can the

           communi ty pharmacist determine what services are needed at each

           patient encounter and provide them in a practical aDd timely manner?


        B. Page 6. paragraph 3: This paragraph includes the statement that
           there is little consensus regardiDg standards of practice for

           clinical pharmacy care as it applies to patient need. There are        goo
                     ~~~




         reasons tor this. and those reasons may negate the practicality of

         implementing Recommendations II and III from the report.


         First. individual patient needs are highly variable. Initial

         encounters with patients who are on multiple drug regimens and those

         whose diseases are not adequately controlled, will required core

         comprehensive clinical services. Once the patient is stabilized, the

         need for intensive monitoring will decrease markedly.


        . Second , the    ability to determine patient needs and         the extent to
         which these      clinical services are provided depends         on the follow ing
         factors:
         1. The availability of the patient' s medical and medication

            information to the pharmacist.


         2. Th              of the pharmacist' s education and training.


         3. The pharmacist' s ability to collect and integrate drug. disease

            and patient data to identify and solve drug-related problems.


         Additional barriers to implementing clinical pharmacy services are

         outlined in the enclosed report entitled.                    Directions for clinical

         practice in pharmacy                      Although this proceedings document is five

         years old. it still contains much germane information on the

         implementatiOn of clinical services.


      C. Recommenca t    ion:   Needs-Based Concept

         Rather than focus on developing a set of needs-based standards,

         pr ior i ty should be given placed on developing a pract ical
         standardized review process for pharmacists to use for each patient

         encounter. This process                  would be directly comparable to the medical
         approach of patient needs assessment. In the medical approach, a

         limited history and physical is completed based on the chief

         complaint and problem. With this method, only a small percentage of

         the patients require a more comprehensive needs assessment. One

         approach which uses a shortened practical pharmacy needs assessment

         process. similar to the medical model, has been developed by the

         Indian Heal th Service and is attached 
               s an appendix.


II.   Description of Clinical Services

      These comments are directed toward Appendix IV. The breakdown of

      clinical services into four general component.s is generally - correct.
      However, the assumpt ion that within each component there is - a continuum
      and the description of that assumed continuum--especially the graphic

      representa t ions-- are inaccurate and/or misleading.
A.     ollect ion of Pat ient   Information
       While most of the important components of the collection of patient

       information are included in the diagram and narrative, they are

       grouped improperly by the source of the information. The source from

       which the pharmacist obtains the data (e.g. a medical, record,

       patient profile, physician interview, or patient interview) is a

       function of the practice environment. They are also affected by the

       pharmacist' s profes5ional commitment to provide clinical services.
     . These components should be listed by the patient need-based cont inuum
       which is being proposed in the report. The graphic continuum should

       also address which type of data is most important to determine the

      pat ient' s needs.
B. Prospective Drug Utilization Review

      The report does not clearly define drug utilization review (DUR).

      Based on the information included in the report. it appears to be too

      nar rowly focused on adverse drug react ions and drug interact   ions.
      The more appropriate definition of DUR appears in paragraph four of

      the introduction; this definition would be stated as follows:


         DRUG UTILIZATION REVIEW is a review of the patient. drug. and

         disease databases to provide the following outcomes for the

         patient:   (1) Identifying potential and actual drug related
         problems: (2) Resolving actual drug-related problems 1 and (3)
         Preventing pcter.tial drug- related problems.


      In prospect i ve DUR processes, the pharmacist compares the therapy
      against the criteria such as those included in the enclosed ASBP

      publication entitled. 
 Criteria for DruQ Use Evaluation . How much,

      how well. and whether DUR is done at all is determined by:


      1. The availability of a comprehensive patient database including

         medica . medication. and patient data.
      2. The capability of the pharmacist to collect and integrate drug.

         disease, and patient data to identify and solve drug-related
         problems.
      3. The pharmacist' s commi tment . to providing clinical services.

      In the descr ipt ion of this component on page IV-3, the graphic does

     not depict a continuum. And. the information  provided in both the
     graphic and the narrative consist more of bow prospective DUR is

     done. rather than what needs to be done.

  _.._-_ ~~~




C. Patient Counseling

   F'igure J on page IV-4 has the
                                same problems that have been outlined
   for the other graphics in the report. It creates confusion and

   presents inaccuracies rather than clar ifying concepts because it
  attempts to illustrate a continuum that does not exist. It describes

  a combination of other clinical components including prospective DUR,

  pr'r         management of chronic patients, and patient counseling
  activities.
  The last paragraph on page IV-4 contains some incorrect information;

  The tirst sentence about pharmacists giving information back to the

  patient is inccrrect. The ultimate outcome of patient counseling is

  to verify the patient' s understanding of how to appropriately take

  the medication prescribed. This outcome requires that the patient

               u..II) why they are taking the medication: (2) how they
  are to take it; and (3) what to expect from the medication (i.

  expected outcomes, side effects, and what to do in all situations).

  Additional information on patient counseling is included in the " ASHP
  statement on the pharmacist' s role in institutional patient education

  programs " and " ASHP guidelines on pharmacist- conducted patient
  cou seling . which are attached in the appendix.

  In paragraph 2 on page IV-S, pharmacists ' experience confirms that

  the most effective mode for effective patient counseling is face-to-

    C= =            Additionally, the . learning curve has been shown to
    crease when the person receiving the information becomes actively

  involved in the process. A successful counseling program should use
  three pr inciples in working with patients: private, face-to-face
  interaction; patient' s active involvement in the process; and use of

  the patient' s existing knowledge. Using open- ended questions, the
  pharmacist verifies that the patient understands critical

  informat ion. If errors in understanding are detected in this

  process, then the pharmacist fills in the gaps. The consultation

  concludes with the patient verbalizing or demonstrating their

  understanding of key elements.


  In paragraph 4 on page IV-S, the pharmacist should also convey

  additional information. Since the purpose of counseling is to

  improve compliance and make the patient better, information regarding

  the expected outcomes and unexpected effeets is among the eritical

  elements that the patient needs to understand. The major causes for

  noncompliance are patient lack of understanding of: what the
  medication is suppose to do (desired effect): what to do if it does

  not happen; what unexpected things might happen (adverse- effects; and
  what to do if they occur.


  The section on follow- up activities and monitoring actually discusses

  prospective DUR; it belongs in the section on prospective DUR because

  it describes the patient-need assessment process that occurs when

                     .._




                  v.. v ...unic medications come in for refills. Therefore, the
         statement that this type of follow-up requires unusually intense

         patient counseling should be deleted. An additional concept which

         might be considered for inclusion in this section involves the

         pharmacist evaluating requests for refills: this involves integrated

         activities of monitoring, counseling, and prescribing under delegated

         physician authority.
      D. Physician Consultation

        . The following term should be used to re-title and for reference in

          this SECt ion: . Physician-pharmacist Interaction : communication is

         also a major component in this interaction. There are four basic

          reasons for physician- pharmacist communications:


         1. Physici",. "i. l:,.     in prescription to pharmacist.

         2. Pharmacist collects or verifies portions of patient/disease-
            state/drug database.


         3. Pharmac i st detects a therapeut ic problem wi th safety; pat   ient
            effect veness, appropr iateness, or cost-effectiveness of the

            prescri ed therapy (during needs-based prospective DUR) and calls
            physician to resolve issue prior to dispensing.


          . 7..            : c:,,
                               to request advice or information about a drug or
            what drug to prescribe given a specific set of circumstances.

            Th i 5 is the only one of the four reasons that is a classic
            consul ta t ion between physician and pharmacist.
         Additionally, in this section, in Figure 4, entitled . Physician
         Consultation " on page IV-6, there is no continuum depicted in the
         graphic. It   consists of who does the calling, where they are
         located, etc. rather than a continuum of functions addressing the

         sophist icated physician/pharmacist interaction.

COMMENTS 0:; RECOMMENDATIONS



      Recommendation II, page 20: Developing risk indicators and treatment

      pr ior i ties may be an unwise use of resources given the frequent changes
      in the nature of each patient' s needs. Indicators eould be developed,
      but they will only identify the patients whO MAY be at high risk (not

      those who are at high risk). What is actually needed is a      hort,
      pract ical needs assessment process that can be used at each-patient
      encounter to determine their particular need at that time for clinical

      pharmacy intervent ion.
        Additionally. in. this section, the term ADR is too limiting. The term,
         negative or adverse outcome " should be substituted because it include

        such important items as treatment failures due to inappropriate drug

       use.
II.    Recommendation III. page 20: The statement that the APhA/AACP prescr ibe
       a maximal level of service in all aspects of clinical care is

       inaccurate. This assumption and the graphic depictions in figures 1-4

       indicate a mi5unde 5tanding of the method used by national standard­

         tting organizations to develop professional standards of practice in

       general.
       Generally, the standard- setting process involves establishing the range

       of services/activities for each function on a continuum from none to

       opt imal. Once the range is established. the standard is selected

       some hCI'        en none and optimal, and this is defined as a minimal
       standa:d. A?: ;/!I.!K.. tandards, which are operational standards, are
       minimal. Given its age, the document can be revised to a relatively
       small deg:ee and still represent appropriate minimal standards for

       clinical pharmacy in community settings in the 1990'   s. Primarily, what
       needs to be done with these standards is to revise them so that they are

       functionally-based instead of task-inventory based.


       ASHP has alsc develo ed numerous standards and guidelines on    clinical
       pract ice for its members. The pertinent standards have been    enclosed in
       the appendi                    this letter.
III.   Summary of Recommended Revis ions
       A. Eliminate Recommendations II and III and substitute a variation of
          comments Band C below.


       B. Recommend that APhA/AACP revise their minimal standards of practice
          based on cur rent pract ice and funct ional, rather than task-inventory,
          componen t s.

       C. Recommend that a joint, nat ional task foree be formed to develop a

          shor tened, pract ical process modeled after the medical approach; this

          process can be used at each patient encounter to measure the need for

          the intensity of each clinical intervention.


       D. Broaden the definition of prospective drug utilization review to
          include all adverse outcomes.


       E. Recommendations for Appendices III and IV

          1. Include other ambulatory settings, sueh    as the Indian Health
                Service. Veterans Administration, and health maintenance

                organizations in the case studies.
                            _-,- --.




          2. Revise Appendix IV to clarify the functions under each component
             and eliminate or revise the graphic representations.



CONCLUSION


ASHP appreciat
        . the opportunity to review the OIG draft report entitled. 
                             The
Cl inical RQle    c!               Communi tv Pharmacist                     . The growth of pat ient- or iented.
clinical ' pharmacy services is
                              crucial to the efficient, safe. cost- effective
care of the drug therapy of all patients. If you have any questions about

these comments or if ASHP can provide additional information on pertinent

topics. please feel free to contact my office.


Sincerely.

             /I
                       (!J
             Oddis. Sc.

             Vice President
lag040920w
cc:   Mary Ann Chaffee: DHHS/OIG/OEI


Attachments
                     OIG RESPONSE TO ASHP' s COMMENTS



We thank ASHP for its thoughtful comments. We note that ASHP and PHS ar of one mind
on a number of the issues rased. For that reason, most of responses to ASHP' s comments are
contained in our response to PHS. Again, we note that the scope of our study did not allow us
to include managed car and institutional settings in our case studies. even though there are
excellent practice models to be found in those settings. Similarly, we recognize the limitations
of our focus on elderly patients , but we believe that eliminating barers to clinical pharacy
will improve patient care for all pati ent populations, parcularly those at risk of drg-related
illness.
                                            ----                                                             -.                        _., --- .




                  American Soiety of

                   Consultant Pharmacists
                    230 Nrn Stee! Sout
                    ArI                n. VUgii'lio
                    (73) 928.n
Mzrcn 28, '99



Rj:hard F. Kw                     E"Ow
In'    ;-E'N            Ge:1e     a1 .
   : Cone . B. il':::'g
332 lJdet'enden:e Avenue, S\\
\\a.,hinb'! on .             IX 20201
rAa.."              K-.,"c..:w.

\";. a.. "'                                            ClcaJ Role of tle
                                                               \ or, tle two
Commun. y Pnarmc:l:' and '"e Qica Role of the Comunty Phcit:
                                                                               dra rert,
                         :::"f Ie' C"c::nmer,



Ca!o S:ue,e;      a?OIc:g;z. fC.. the delay
                                  We
                                                                    for              ir respondig to your                reest


l:!'mer' ' E. eve:, we tool: the tie to sed copies of thes report to ou
leade :, sc: Iha: we cou. ircorpnle the views of pnctcig consultat
         :=~Lc:LC.           ii\tc our COInents
Tne consu.le:. : vie.,. of th                                    ",'h:. re\iewe: thes             report is thI thes are
e'l:ei7k           :. ...e:: 
    C::ne in            ter ofaspe'
                                                               underslandig the subjf! and aCC"tel)' asseinb'
                                                                   of provjci:1g chnica phacy sees ir
                                                        " aJ" pi C'la: plea to se tht your c: studiE!
D.'    :r Lo,e p:';.:. .           f and          nei=ati\'e

ti'" co:-""7,                          C:::""f:' v-'

           ;jE-': cc:r.;.:.                 : pharci;.'.        ",.ho provide services to long      residents.     ter           cae


TncrL i'..                                       t..z:, ",ith the "grying of A%erica," th importnt area of
                                                                                       regne:
                                            r,
                          c;-

pr. a.'".      a:y pra::l.e ..-i                      beome    even more              for the vauable and
ne.essar: servi:e: tht are                                     provie: to elderl)' reents ir varow                               home
e;"               :-, c:-,




V. e a           a1;:      plea.E"': thz: your repon citec constant                                         seces provided to nuring
lIC\me                          , a.' 81,                 mp; 0; a &uccesfu non-prouct relalec reimbursent
ir"en:;ve systen-, for                                                                  We must point out, however,
                                                                                                                  beee
                                                 clca1 pharmcy                 &eT\ices.


tha            ,r. reir:, !-!lr!oE'               enl a"angemp                  are made privately        10ng term
   fadlj . adminitntor an constat phadsts in c:
care
                                                                                                                         wh            the
admistrator re.ognes the positive impact. cm patient cae                                                                     consulUlI
 phzrm::ts can mae. However. tht payment to constat phacits Is not
 recognied by governt thd par payozs.           Medcaid an Medcar,
                                   rema prouct rete. Your rert identies
                                                                                            spcay
 where the only payment incentive
 the problems irherent in a &ystem wher the payment intive
                                                           Is prouct=baec.
..




     MI. Ri                 . E:. J(usseTow
     Mach 2., 199
     Page Two



     Your draf report alo  ma good inti steps towa iden\:b the long ten
     heath care savings tht ca accre to the overa health cae system :when drg
     therapy is properly             fuy conc
                                         maged.                menl To fuer
                                                              We                              with tht

     confi tht                  have
                             conclusion, we               an arcle by Dr.
                                                                    enose a reprit                       oC

     Kidder of HCFA  tht re\'iews several publihed  report indicatig tht clcal
     pharmcy ser.'ices in the nuring home envinment can produce                                                                signnt
     savings to lhe overa                    elderly America.
                                                heaL". cae costs             oC




     We believe that vour                     office     ha made a goo start towad workig on these                                     issues
                                          10      pr.acy ard the public we seIVe. To fuer                                        th work, we
     of great IDpon.,1J"
     invite your office to meet with us to                                dis
                                                what we believe is the major barrer to
     clcal phac") SEn.;ces identied in your rert, naely the product-baed
     reiburement incentive S)' Slem. We stad ready to work with your offce to
     identify sit                          be intiated ard managed. We believe tht
                              where a pilot stud)'                 coud

     such a sr.Jc\ could produce conclusive e\;dence tht                                                      the       reimburseent
     incenu \'1: for cin.ca1                   pharmcy must be chnged to a                                     servce      provided outcome
     oriented system and tht in doing so, patient cae woul improve and the overall
     costs IL' tj"            ':c.            J ,,;.;,        ed heath         care         system would deceae.

     We look forward :v m                              tig v,;th your         sta in the near futu.



       "tJ


     R Tim Webster

     Exective          Diector
     Rn\' /haJ
     Enclosure

     cc: Asistant Inpector General Michael                                        Mangano

                RegionaJ lrpf'rr General Mark R. Yessia, PhD
                   OIG RESPONSE TO ASCP' s COMMENTS


We thank ASCP for its suppon of our recommendations and commend the organization for its
willngness to pancipate in pilot projects to reduce barers to clinical pharacy practice.
                                                                                                                        '" ! , ,





                                         AMRICAN ASSOCIATION
                                      OF COLLEGES OF                PHACY
     March 8, 1990

 Mr. Richard P. Kusserow
 Inspector General
     Department of Health and Human Servces
 Washington, DC 20201

            r Mr. Kussero".
 Thank you for the opportnity                     to reew the     tWo    dra reort,                The Clinical Role of tbe
 COlnmunity Pharmactt
 Q\' erall,       the report are
                                        and    The Clinical Role of the Community                Pha1't:
                                              ver well wrtten, comprebenlve and accurately reflect the
                                                                                                                 Case Studies.
 opportnities and barers confontig pharacits In thei abilty to enance the public health
in the community settg.
 I am pleased to offer these comments, diraed
Community Pbarmctsr 

                                                                         speca              at    The Clinical Role of rbe
                                       v.1th the hope that these remarks wi asist you and your collcag'":s
:.S you prepare the fin:!! 
            eport. My comments are           died
                                                                          at three areas:

                         Issues related to Drug Utition Revew                    (DUR); "
                        Functions perfonned by community pharacits In provding clinical SC"" "L' S 111
                        ambulatory care settings; and
                        Cost effectiveness of ambulatory         clca pharaceutica serces.
Drul! Utilization Re-iev,"



     :I!l    one offers a definition of DUR attributed to Rucker. MCP prefers the definitioll ,., 111 I:
which has been adopted by the American Sodety of Hospita                                Pharacits:
                 dn'g use evaluation program is a strctured, ongmng,                                oranizatioll''''1
              authoried, qualiry-assurance process degn                     to     en            that drugs are 1/.''/
              appropriately, safe/)' and effctently.
1\    copy of the ASHP Guidelines on the phannacist s role In drug use evaluation is cn, I.
your infonnation. This definition, and these prindples,                          ar applicable to the amb         ul....." ..,
sctting with slight modification in language only.




                               1426 Prince Srr.. . Alexandria. Virgnia   22314 . (703) 739. 2330
 ,riM'"'' '"I 


 P:lge Two




 Functions Performed bv Pharmacists


 The Findings secton of the Repon and Its Appedix contan desptions of the activities
 performed by phanacists in ambulatory                          segs.
                                               They are prested in a spectrum of
schematic diagrms to' i1ustrat                          minimum and maxum    degee of clca         servces. Recent
events in the profession h                    vc shed considerable light on the clica           role of pharmacists
practicing in all environments of cae, especily the community phanacy environment. The
profession ' sponsored the second Phannacy in the 21st Century Conference in October, 1989.
The keynote paper presented at the Conference (Hepler and                          Strd)
                                                                       is enclosed for your
information. It            elaborates on the theme of               pba7"eulcai      care     as the philosophy of
pharmacy practice, and describes functions peonned by                                phannacits in       rendering
phanaceutical cae.


Please note specically pages 10 and 11 which offer adeted anis of drug-related ilness.
It is clear that drug-drug.                     aler  Interctons, as lited In the Repon,
                                          drug- disease
comprise a relatively small ponion of what may go wrong with
                                                             and drug-
                                                                                   phanacotherpy in patients.
Computer screen will not routiely and effcientl                          detect many of the problems listed by
Hepler and Strand. The only feasible method to low                           the Incidence of drug.related ilness
is to increase the access of patients to phanaceutica ca.
Also enclosed is a Background Paper from the MCP Commision to Implement Change in
Pharmaceutical Education. It describes the mision for phanacy practce and the functions
pharmacists perform ir. ti:ncering phanaceutical care.
These tWo documents offer new insights into the reponsibilities of phanacists in all areas of
care. A5 your repon points out , there are                          numerous barer          which prevent the wide
availabilty of pharaceutical care to ambulatory patients. None of thes barers is absolute,
Our challenge is to identify and implement methods to prode incentives to pharmacists for
providing phannaceutical care.
COSt EffeCtiveness of Communit\. Pharmaceutical Serces

The Repon concludes that there is strong evdence which support the thesis that clinical
pharmacy servces add value to patient care. Three natinal organiztions, the American
Association of Colleges of Pharmacy, the America Phanaceutica Asociation llId the
Pharmaceutical Manufacturers Association, sponsored a Task Force exmining the cost
effectiveness of phannaceutical produCt and pharacy serces. The R on, cllrrenrly
undergoing final review, will be sent to you when avlable. One chapter in the Report
discusses the COSt effectiveness of pharmacy servces docmentig the YOluminous literatUre
verifying the observation that phannacy servces add signficant vaue to total patient c:lr
services.




                  .- '___._n

,.         /!,

      March 8 ,   1990
      P:!ge Three




                                         s Repn outles In succct det the need for clinic:!l
     In conclusion , the Inspector General'
     pharmaceutical servces in the community envionment and the barers to
     implementation. MCP ",;11 consider caefll thos remmendations addressed to Ittheir  full
                                                                                   and will
     join with other orgartions in pharacy to enure that the beeftS of ambulatory
     ph3rmacy are made available to as broad a population                           clinical
                                                            of patientS
                                                                          possible.
     Sin



     Carl E. Trlnca , Ph.

     Executive Director

     CET:jnc

     enclosures
-.              p),- :.                                   -..... !!
                                                      "";''':                   '. ._.-.:- , -.....
                                                                              -!!..-                                            %. """ .....-
                                                                                                                                . --              -'';-'; --- -'.'- ..
                                                                                                                                                 -..
                                                                                                                                           _"- ......
                                                                                                                                                "..g '
                                                                                                                                           ;... "'''-''                                                                              ",.



                                                                                                                                               8n II
                                                                       ..     ==                    ;"-                            . ..
                                                                                                                                ..-?).%. ..    ".




         A drg == ..&1""""
                                                      Po".... is . 
                 SI                     GIIO

                                                                                                                                                od drgil1ICIOl wQ !b wd m1
         Ofzncm)'
                                                            'I"
         d=cn= II                 c= th dr ..                                                                   . sdeJy,
         e: eao:                       y. In 


                                  eouJd CIC 
               1_"-"i
                                                                            bc..

                                                                               p .m wa wi 

                                                                                                                                    .3 ReiD

                                                                                                                                                Ca)   Clc:li cr ap dr as
                                                                                                                                                n .. qI:a e dawi= dre me (
                                                           eIll cc
                                                                                                                                               pI).
               edc: =x nl:C 
                                                                                                                                                                                          jI'b .

                                                                                               CI          od
         -w.w;n                    m Ih -El cd                                                 at dn
         ""In';"" I" 'T bze
        -IS foD_
                                                                of =g                                                                                 pa bJ mc scicdrCIIIry of                       at




        L 1b!l of objeve,                                                            cz (SU)                                        5.                                        II   rtl:                                                    ID II

                  d=dc!b
                                                 &w.                                 aci.                                                                                 II
                                                                                                                                                                                                                                             ty­
                                                                                                                                               0I I . cb il dr lI "CI
                                                                      - of
        %. 1b 01=11 P1zec .cd                                                             ZZ''                                                                           at
                              S1S1
                                   of !b dr'                8C as IIId prcm
                                                                                                                                               po1 . I: il !01I cdcm
                                                                                                                                                             ID

                  or      pola IIbiam                        8: I!
                                                                 Id,
                  fId.       pI " :(.                     ---0.
                                                 c! (Plz -=
                                       of d:..), ba it CO
                                                                1I!b                                                                                1 - CD              ev&k                     "-r                              prJ;
                 or
                                n:"'ID
                   1e...y (wieJ (wi  11--= . !b CI)              10

                                                                                     II Ii
                                                                                     Ih be


                                                                                                                                               Im - . '"\i
                                                                                                                                                        Iid
                                                                                                                                                     CI Jb 01
                                                                                                                                                                                                                          b&


                 CCIe=.              otpr
                                      I! Is-=
                                                                                                                                                            of drg -- as m                die



                                                                                                                                               CI li """,In' ft....w..
                                                                                                                                                      ch It
                                        '" As

                 !b.
                                                                                                    II                                                                                                                     cI
                                                                                                                                                                               ClIp cI
                                                                                                                                                                                                                                           ID Ib
                 1I (lIcp 

                           of II                                                          be                                     CI                 pc at di                                                      aI vi 81
                                                                      810l) !b
                                                                                                                                 II                   .I                                                      (Co
                 Cloa II
                 ftlvc'




                 pc-     elc= i=em "" !b
                                      op dr Ib.
                                                  revea il
                                                            e Cld


                                                                             II Ca
                                                                                                    dI !l                                   IN or 11 rc ca at cI CS mz

                                                                                                                                 be aa il II-g
                                                                                                                                                at & drg is


                                                                                                                                                     t;..
                                                                                                                                                                   clea or
                JI                     of




                           r-"'; -=
                                                                                                                                  "--.t
                                                                                                                                                                    bm m                                           c! ZI be
       3. Th
                                       ID
                                 of prblam
                                                                                                                                 SE

                                                                                                                                        'T:.
                                                                                                                                             ' I.
                                                                                                                                               &l
                                                                                                                                                                Il  el dr                       na
                                                                                                                                 JI iI 

                                                                                                                                                                     es &a                  omc: pa=



                                                        a: lie. CI:=                                                             Dcz drl JI np
       .c Th. 1C0l 

                                                                       Oll ID 


                            15.                            om
                                                     CI or;o.
                Acem Qk II                           be
                                                                                                                                                                                   Reference
                                                                                                                                                                                                                  cI ph
                be di 


                                                                                                                                 1-
                Drp wh -                            sh be 89 Ib                                                                                                                                            fa
                                                                                                                                              SI MI


       see:               fCl OD or II=- of d:         foIlwm re                                     2.,s                                  HOI I'lwI98
                                                                                                                                                                    CI

                                                                                                                                                                                        39:.                           - t8.               Am J


                                         bo              -- 8d                                                                             Sr Mi c:                                        I'...
               n=
                                                ri

                                         ;,- II wi 1JI! c!
                                                                                                                                                                                                                                           c:e
       1. TIe drg                  is                 or                             ID
                                                                                                                                                                                   Cc                             e &l

                                                                                                                                                                                                                        19 &(1l)
                                                                                                                                                                11-" Pr di ;N
                                                                                                                                                                  mr.                                Re
                                  or
                                                                                                          foo 11
                                                                                                                                                                                   QII                      B8l                            10.
               &lDe                                       il a    -- II
                                                                                                                                3. eo CP,
                                                                                                                                                                                   ML                                                      fa a
          IiCl hea 
                                                                                                                      JC -..
                                                                                                                                                                                                           to AmCi Socy
       %. ne =1 is us m Ib
               be It mgh zi Ca ad.,= Cr
      .3. ne dtl: is CI of Ib =o
                                                           a=                  at
                                                                                    pc w!
                                                                                                                                                      I..t
                                                                                                                                                               II holl
                                                                                                                                                             pM-=
                                                                                                                                                                      ofHo CI: loi
                                                                                                                                                                                            1986
                                                                                                                                                                                                far
                                                                                                                                                                                            T:u"'
                           OZis
                                                                            !r!y P="'                                           5. SlMH Mod Ca a                                                     fOl    . l. e ctibioti
                                                                                                                                                                                                                  JRI
                                                                                                                                                                                                                                   1987a

      4. Th C:. is po                            u.y zcti c:                                                                                                                                         Am J 80s                    Ph= 1.78;
               DO thenc dcges                                                                                   rt If
                    35:&11.

         1I.
     . 5. TIedr is mal efea... whl in a sp/C                                                                                    6. 51011
                                                                                                                                          AmJ Bos Pf4n
                                                                                                                                                       MH

                                                                                                                                                                                   1;78;             3S:76-.
                                                                                                                                                                                                              cp..                 c.Coliaa.
      6. The dr is
         8d1l 1Ii:g ri,,    f 'Y evWz                                                                            Cor
                                                                                                                            4r -.                                                           Di
      7- Th. drl ha bc scea
                              dee:cm Of


                                                                      Ib
                                                                                                                                              . I
                                                                                                                                                    bJ 11 AS
                                                                                                                                                      "" do AS
                                                                                                                                                                               !I
                                                                                                                                                                                          c-r-:..
                                                                                                                                                                                            ef
                                                                                                                                                                                                 I"- - tI Pb::
                                                                                                                                                                                                             .. i'..oe
                                                                                                                                                                                                                                     19. 1m.


                                                                                                                                                                   Di i'.c
           policy, Cor ev

                                                                                                                            It II DN-t.. RI                                    CI
                                                                                                                                                                                   A5


         Re'bclS
      naon        of the ;t
           prJ: includ              il a c! 1:                                                                             1I AS Ba rL                                           II Ap3Q l5L
                       11. Collwig:
      1.   Pr,il ""c: wi lb. me Nf
          omm. cly
                                                                                                                           Cop
                                                                                                                           lD             AlIi-.        !!a.
                                                                                                                                                                                                Sa oIli




                                                                                   of !b cb                                lt                       m.IbAm J B=;"-                                         19S :5;3
